                                                             United States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Office of Inspector General

                                                                       AUG 101011



MEMORANDUM

TO:

FROM:

SUBJECT:         Audit of Norwegian People's Aid Under Department of State and U.S.
                 Agency for International Development Multiple Agreements for Year
                 Ended December 31, 2007 (AUD/CG- II-40)

The subject report is attached for your review and action. As the action office, please provide,
within 30 days of the date of this memorandum, a response to the Department of State, Office of
Inspector General (OIG), to the recommendation included in this memorandum. Your response
should also include information on actions taken or planned for the questioned costs identified in
the report. Actions taken or planned are subject to followup and reporting in accordance with the
attached compliance response information.

The audit was performed by an independent public accountant at the request of the U.S. Agency
for International Development (USAlD), Office of Inspector General. The report also addresses
internal control weaknesses and other issues ofnoncompliancc with the terms of the grant
agreement and applicable laws and regulations that require corrective action by the grantee.
However, the reported internal control weaknesses [or Department grants are similar to those
reported for USAlD grants in the subject report. USAlD compliance staff have contacted the
Norwegian People ' s Aid and requested action to correct the control deficiencies. OIG, in
coordination with USAID's OIG, will monitor the corrective actions by the Norwegian People's
Aid and keep you informed of the progress to implement the independent public accountant's
recommendations on internal controls and issues of noncompliance.

          Recommendation 1: OIG recommends that the Grants Officer, Bureau of Political-
          Military Affairs, Office of Weapons Abatement, issue a final determination on the
          allowability of questioned costs of $3,313 for Grant Awards S-PMWRA-06-GR-048
          ($3,213) and S-PMWRA-07-GR-07 ($100). If the costs are disallowed, the responsible
          official should ensure that the Norwegian People's Aid reimburses the Department of
          State.

                                         (b) (6)
(b) (6)
Attachments: As stated.

cc:                (b) (6)
             (b) (6)
                (b) (6)
       PM/WRA (b) (6)
      USAID/M/OAAlCAS - (b) (6)
                                     NORWEGIAN PEOPLE’S AID

                     RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER
                          FOR THE YEAR ENDED DECEMBER 31, 2007



1.   INTRODUCTION TO NORWEGIAN PEOPLE’S AID

     Norwegian People’s Aid (NPA) is a non-governmental organization (NGO) located in Oslo, Norway.
     NPA is a membership governed organization, which stands on four pillars of equal worth: youth
     work, health and rescue work, socially targeted work and international work. NPA bases much of its
     activity on members’ voluntary work.

     In NPA’s national, international youth, and health and rescue work, the following areas are
     promoted:

            The fight against oppression, poverty and unjust distribution.
            The fight against racism and discrimination.
            Work for equality and against violence and injustice.
            Prevention, voluntary engagement and competence building.

     This report is with respect to the U.S. Government funded programs in South Sudan, Angola, and
     Cambodia. The programs were managed by NPA’s field offices located in Nairobi, Kenya, Juba,
     South Sudan, Luanda, Angola and Phnom Penh, Cambodia.


2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS

     Following is a description of the active grant awards under which NPA incurred expenditures during
     the year ended December 31, 2007:

     •   Award # DFD-G-00-07-00038-00
         In January of 2007, the United States Agency for International Development, Office of Acquisition
         and Assistance, awarded NPA $4,671,128 under Grant # DFD-G-00-07-00038-00, for the
         period January 1, 2007 through December 31, 2007. The main purpose of the grant is to
         provide support for a program to increase agricultural production for targeted households
         through the adoption of improved techniques and technologies in Sudan. Based upon the
         objectives stated in the award, the project is expected to achieve the following outcomes:

            Contribute to the right of the rural communities in South Sudan to improve livelihoods.
            To make available urgently needed non-food items to minimize livelihood stress.
         There has been one modification to this grant, which increased USAID funding to $5,070,687, as
         follows:

                                                                 Year             US$
                Initial award                                    2007          $4,671,128
                Modification No. 1                               2007             399,559

                TOTAL FUNDING                                                  $5,070,687


     •   Award # DFD-G-00-06-00070-00
         In March, 2006, the United States Agency for International Development, Office of Acquisition
         and Assistance, awarded NPA $6,509,880 under Grant # DFD-G-00-06-00070-00, for the
         period January 1, 2006 through December 31, 2006.


                                                                                                        1
                                     NORWEGIAN PEOPLE’S AID

                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER
                         FOR THE YEAR ENDED DECEMBER 31, 2007



2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

     •   Award # DFD-G-00-06-00070-00 (continued)

         The main purpose of the grant is to provide support for a program to contribute to the right of
         poor rural communities of southern Sudan to have sustainable livelihoods. Based upon the
         objectives stated in the award, the project is expected to achieve the following outcomes:

            Food Security/Agriculture;
            Procure relief commodities; and
            Risk reduction.

         On December 22, 2006, USAID modified the agreement and extended the completion date of
         the award to April 30, 2007.


     •   Award # FFP-A-00-04-00021-00

         In January of 2004, the United States Agency for International Development, Bureau for
         Democracy, Conflict and Humanitarian Assistance, awarded NPA $9,423,316 under Grant #
         FFP-A-00-04-00021-00, for the period January 1, 2004 through December 31, 2004. The main
         purpose of the grant is to donate agricultural commodities and to pay related support costs for
         emergency food security programs in eastern and western corridors of South Sudan.

         There have been nine modifications to this grant, which revised the completion date to
         December 31, 2007 and which increased USAID funding to $44,249,583, as follows:

                                                               Year             US$

                Initial award                                  2004         $ 9,423,316
                Modification No. 1                             2004           1,094,152
                Modification No. 2                             2004           5,011,600
                Modification No. 3                             2005           6,358,276
                Modification No. 4                             2005           4,401,300
                Modification No. 5                             2005           4,517,639
                Modification No. 6                             2006           4,000,000
                Modification No. 7                             2006           9,443,300
                Modification No. 8                             2006                -
                Modification No. 9                             2007                -

                TOTAL FUNDING                                               $44,249,583


     •   Award #S-PMWRA-06-GR-014

         In April of 2006, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
         Weapons Removal and Abatement, awarded NPA $700,000 under Grant # S-PMWRA-06-GR-
         014, for the period March 1, 2006 through February 28, 2007. The main purpose of the grant is
         to implement a system that can secure a fast and cost effective way of opening up a road
         network in South Sudan and allow repatriation of refugees and Internally Displaced Persons
         (IDPs) to take place in a safer manner.


                                                                                                      2
                                     NORWEGIAN PEOPLE’S AID

                     RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER
                          FOR THE YEAR ENDED DECEMBER 31, 2007



2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

     •   Award #S-PMWRA-06-GR-014 (continued)

         Based upon the objectives stated in the award, the project is expected to achieve the following
         outcomes:

          Land cleared in high impact areas of South Sudan;
          People in NPA areas of operation receive increased knowledge about the mine risk situation
           in their communities;
          A comprehensive mine action capacity is established; and
          NPA conducts its operations in compliance with IMAS.


     •   Award #S-PMWRA-07-GR-064

         In June of 2007, the U.S. Department of State, Bureau of Political-Military Affairs, Office of
         Weapons Removal and Abatement, awarded NPA $100,000 under Grant # S-PMWRA-07-GR-
         064, for the period June 1, 2007 through May 31, 2008. The main purpose of the grant is for
         empowering CMAA and competence building of South Sudan demining commission within
         survey, task impact assessment and mapping.


     •   Award No. S-PMWRA-06-GR-048

         In 2006, U.S. Department of State Bureau of Political-Military Affairs, Office of Weapons
         Removal and Abatement, awarded Norwegian Peoples Aid $1,672,000 under Grant # S-
         PMWRA-06-GR-048 to provide support for UXO capacity building in Laos, for the period
         August 1, 2006 to July 31, 2007. During 2007, USDOS granted an additional $165,000 and
         granted a two-month extension. Therefore, the revised completion date is September 30, 2007.

         The project encompasses the following provisions and objectives:

            Provide 1 Financial Advisor, 1 Quality Management Advisor and 2 EOD Technical Advisors
             in support to the UXO LAO Programme;
            Local support staff – 5 persons to provide support services to these projects;
            A monitoring team to conduct monitoring visits two (or three) times over the period of one
             year; and
            Sub-contracting to UXO LAO staff in the Southern provinces of Savannakhet and
             Champassak.

         The following is a summary of the current obligated funding:

                                                                 Year            US$

                Initial award                                    2006         $1,672,000
                Modification                                     2007            165,000

                TOTAL FUNDING                                                 $1,837,000




                                                                                                      3
                                     NORWEGIAN PEOPLE’S AID

                     RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER
                          FOR THE YEAR ENDED DECEMBER 31, 2007



2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

     •   Award No. S-PMWRA-06-GR-056

         In 2006, U.S. Department of State Bureau of Political-Military Affairs, Office of Weapons
         Removal and Abatement, awarded Norwegian Peoples Aid $38,404 under grant number S-
         PMWRA-06-GR-056 to provide support, research and development of CMAC detection dogs,
         for the period April 1, 2006 to September 30, 2007.

         The project encompasses the following provisions and objectives:

            Collect information regarding operational environments in regards to UXO clearance.
            Research and compare operational methods with other mine and UXO affected countries
            Gathering and compare information on different training methodologies for training of
             detection dogs.
            Share information from CMAC’s long-term experience in mine and UXO clearance.

         The following is a summary of the current obligated funding:

                                                                 Year              US$
                Initial award                                    2006             $ 38,404
                TOTAL FUNDING                                                     $ 38,404


     •   Award No. S-PMWRA-07-GR-077

         In 2007, U.S. Department of State Bureau of Political-Military Affairs, Office of Weapons
         Removal and Abatement, awarded Norwegian Peoples Aid $99,914 under grant number S-
         PMWRA-07-GR-077 to develop the national capacity of the Cambodia Mine Action Victims
         Assistance Authority (CMAA) by developing the collection, management, and dissemination of
         information, from, with, and to the other mine action stakeholders in the country, for the period
         April 27, 2007 to January 31, 2008.

         The project encompasses the following provisions and objectives:

            Build a national and centralized database that will efficiently and transparently manage the
             information flow between CMAA and other mine action stakeholders.
            Capacity building of national database staff, so they maintain a sustainable routine to
             process and manage mine action information.
            Capacity building CMAA and CMAC information and reporting systems by introducing
             compatible formats and information exchange mechanisms.
            Establishing an information-friendly operations room within CMAA that allows the planning,
             prioritization and monitoring of all mine action activities in the country.

         The following is a summary of the current obligated funding:

                                                                Year             US$
                Initial award                                   2007            $ 99,914
                TOTAL FUNDING                                                   $ 99,914




                                                                                                        4
                                    NORWEGIAN PEOPLE’S AID

                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER
                         FOR THE YEAR ENDED DECEMBER 31, 2007



2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

     •   Award # S-PMWRA-06-GR-004

         In 2006, the United States Department of State, Bureau of Political-Military Affairs, Office of
         Weapons Removal and Abatement, awarded NPA $1,550,000 under Grant # S-PMWRA-06-GR-
         004, for the period May 1, 2006 through April 30, 2007. The main purpose of the grant is to
         protect victims of conflict and restore access to land and infrastructure through:

            Increasing available land for subsistence and commercial agricultural cultivation.
            Allow free movement and settlement of populations.
            Contribute to improvement of physical infrastructure and access (roads, bridges, schools,
             etc.) to promote an increased movement and exchange of goods among communities.

         Based upon the objectives stated in the award, the project is expected to achieve the following
         outcomes:

            Return 660,000 sqm of cleared land for safe use by local communities.
            Clear 80 km of road.
            Eliminate mine/UXO threat for 300 families.
            Complete 100 spot tasks.

                                                               Year            US$

                Initial award                                  2006         $1,550,000

                TOTAL FUNDING                                               $1,550,000


     •   Award # S-PMWRA-07-GR-014

         In 2007, the United States Department of State, Bureau of Political-Military Affairs, Office of
         Weapons Removal and Abatement, awarded NPA $775,002 under Grant # S-PMWRA-07-GR-
         014, for the period May 1, 2007 through April 30, 2008.

         The main purpose of the grant is to protect victims of conflict and restore access to land and
         infrastructure through:

            Increasing available land for subsistence and commercial agricultural cultivation.
            Allow free movement and settlement of populations.
            Contribute to improvement of physical infrastructure and access (roads, bridges, schools,
             etc.) to promote an increased movement and exchange of goods among communities.

         Based upon the objectives stated in the award, the project is expected to achieve the following
         outcomes:

            Return 660,000 sqm of cleared land for safe use by local communities.
            Clear 80 km of road.
            Eliminate mine/UXO threat for 300 families.
            Complete 100 spot tasks.



                                                                                                      5
                                     NORWEGIAN PEOPLE’S AID

                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER
                         FOR THE YEAR ENDED DECEMBER 31, 2007



2.   DESCRIPTION OF THE U.S. GOVERNMENT FUNDED AWARDS (Continued)

     •   Award # S-PMWRA-07-GR-014 (continued)

         There were two modifications to this grant, which increased USAID funding to $1,550,000, as
         follows:

                                                                Year              US$

                Initial award                                    2007          $ 775,002
                Modification No. 1                               2007            469,411
                Modification No. 2                               2007            305,587

                TOTAL FUNDING                                                  $1,550,000


3.   PERIOD OF AUDIT

     In accordance with the terms of reference for the audit, this report covers the year ended
     December 31, 2007.


4.   OBJECTIVES AND SCOPE OF AUDIT

     Our audit of the fund accountability statements of NPA’s United States awards, for the year ended
     December 31, 2007, was performed in accordance with United States Government Auditing
     Standards and the Guidelines for Financial Audits Contracted by Foreign Recipients, in order for us
     to express an opinion on the fund accountability statements. Please refer to point 6 below and
     page I-3 of the accompanying report for our opinion on the fund accountability statements.


5.   PROCEDURES PERFORMED

     As required by United States Government Auditing Standards and the Guidelines for Financial
     Audits Contracted by Foreign Recipients, we performed audit procedures to evaluate the
     effectiveness of the design and operation of the internal controls that we considered relevant to
     preventing or detecting material noncompliance with the compliance requirements applicable to
     each of NPA’s U.S. Government awards.

     Our audit procedures included examining the underlying documentation, which supported the
     financial transactions recorded as expenditures against the U.S. Government awards. Our
     selection of items, which we examined, was based upon a random sample of transactions as well
     as the materiality of certain transactions.


6.   AUDIT RESULTS

     Fund Accountability Statements:

        Our opinion on the fund accountability statements for the year ended December 31, 2007 was
         qualified based upon the amount of the questioned costs. Please refer to page I-3 of the
         accompanying report for our full opinion.


                                                                                                      6
                                     NORWEGIAN PEOPLE’S AID

                     RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER
                          FOR THE YEAR ENDED DECEMBER 31, 2007



6.   AUDIT RESULTS (Continued)

     Questioned Costs:

        Our 2007 audit included both ineligible and unsupported questioned costs. Following is a
         summary the questioned costs identified during our audit process.

                                                                      Questioned Costs

                                                                   Ineligible   Unsupported

         Award # DFD-G-00-07-00038-00                          $        -       $      -
         Award # DFD-G-00-06-00070-00                          $        -       $      -
         Award # FFP-A-00-04-00021-00                          $        -       $      -
         Award # S-PMWRA-06-GR-014                             $        -       $      -
         Award # S-PMWRA-07-GR-064                             $        -       $      -
         Award # S-PMWRA-06-GR-048                             $        1,479   $      1,734
         Award # S-PMWRA-06-GR-056                             $        -       $      -
         Award # S-PMWRA-07-GR-077                             $          100   $      -
         Award # S-PMWRA-06-GR-004                             $        -       $      -
         Award # S-PMWRA-07-GR-014                             $        -       $      -


     Report on Internal Controls (Please refer to Sections II and IV of our report):

        We noted the following material weaknesses:

              Noncompliance with established procurement policies (Sudan, Angola).
              Significant journal entries which were not properly supported (Sudan, Angola).
              Timesheets were incomplete, not signed, not approved and there were instances where
               time charged to the awards did not correspond to hours indicated on timesheets (Sudan,
               Angola).
              Noncompliance with established sub-recipient monitoring policies (Sudan).
              Cash management: Bank reconciliations were not properly completed, reviewed or
               approved and petty cash counts were not properly conducted or accurate (Sudan).


        We noted the following significant deficiencies:

              Inventory was not properly controlled (Sudan).
              Personnel files were incomplete (Sudan, Angola).
              Payments to local staff not properly supported (Sudan).
              The field office accounting policies and procedures manual was outdated (Sudan).
              Competency of the accounting staff should be evaluated (Kenya).
              Financial records were not properly filed and difficult to locate (Sudan).
              Numerous instances of payment vouchers not properly signed and dated (Sudan).
              Non-compliance with anti-terrorism provisions of grant awards (Sudan, Angola).
              Allocation of shared costs were not formally documented-cleared (Angola).
              Split costs between donors were not formally documented-cleared (Angola).
              Salary sheets not signed (Angola, Cambodia).
              Travel documents missing (Cambodia).

                                                                                                   7
                                    NORWEGIAN PEOPLE’S AID

                    RECIPIENT CONTRACTED AUDIT TRANSMITTAL LETTER
                         FOR THE YEAR ENDED DECEMBER 31, 2007



6.   AUDIT RESULTS (Continued)

     Report on Internal Controls (Please refer to Sections II and IV of our report) (continued):

        We noted the following other areas of concern:

              Numerous instances where similar transactions were coded differently in the accounting
               system (Sudan).
              Quarterly financial reports not submitted on a timely basis (Sudan, Angola).
              Instances of bank reconciliations not being signed by reviewer (Angola).
              Employee attendance sheets not signed (Cambodia).
              Conflict of interest statements (Angola).
              Request of funds (Angola).
              Documentation of Clearing and Handling Costs at Port in Luanda (Angola).
              Whistleblower policy (Angola).

     Report on Compliance (Please refer to Sections III and IV of our report)

      We noted the following material instances of non-compliance:

              Noncompliance with established procurement policies (Sudan, Angola).
              Noncompliance with established sub-recipient monitoring policies (Sudan).
              Noncompliance with Anti-terrorism provisions (Sudan, Angola)


7.   INDIRECT COST RATES

     Indirect costs were charged to U.S. Government awards based upon NPA’s actual rate of 14.86%
     for the year ended December 31, 2007. Please refer to Section VI of the accompanying report for
     the calculation of NPA’s 2007 indirect rate audited by other auditors.


8.   COST-SHARING

     Based on our review, nothing came to our attention that caused us to believe that NPA did not fairly
     present the cost-sharing schedule. Please refer to Section V of our report for the full Cost-Sharing
     Schedule.




                                                                                                       8
   NORWEGIAN PEOPLE’S AID
UNITED STATES GOVERNMENT PROGRAMS

                       AUDIT REPORT

                     FEDERAL AWARD
             COMPLIANCE EXAMINATION

             AS OF DECEMBER 31, 2007
                                     NORWEGIAN PEOPLE’S AID



                                              CONTENTS



                                                                          PAGE NO.


I.     Financial Section                                                    I (1-17)


II.    Independent Auditors' Report on the Internal Control Structure        II (1-3)


III.   Independent Auditors' Report on Compliance                           III (1-5)


IV.    Independent Auditors' Report on Findings and Recommendations        IV (1-16)


V.     Independent Auditors' Review Report on the Cost-Sharing Schedule      V (1-5)


VI.    Report on Indirect Rate Calculation                                  VI (1-4)
                 FINANCIAL STATEMENTS

   NORWEGIAN PEOPLE’S AID
UNITED STATES GOVERNMENT PROGRAMS

  FOR THE YEAR ENDED DECEMBER 31, 2007




                                    I-1
                                   NORWEGIAN PEOPLE’S AID



                                           CONTENTS



                                                                             PAGE NO.


INDEPENDENT AUDITORS' REPORT                                                    2

EXHIBIT A - Summary Fund Accountability Statement for the Year Ended
            December 31, 2007                                                   3

EXHIBIT B - Fund Accountability Statement for Grant # DFD-G-00-07-00038-00
            for the Year Ended December 31, 2007                                4

EXHIBIT C - Fund Accountability Statement for Grant # DFD-G-00-06-00070-00
            for the Year Ended December 31, 2007                                5

EXHIBIT D - Fund Accountability Statement for Grant # FFP-A-00-04-00021-00
            for the Year Ended December 31, 2007                                6

EXHIBIT E - Fund Accountability Statement for Grant # S-PMWRA-06-GR-014
            for the Year Ended December 31, 2007                                7

EXHIBIT F - Fund Accountability Statement for Grant # S-PMWRA-07-GR-064
            for the Year Ended December 31, 2007                                8

EXHIBIT G - Fund Accountability Statement for Grant # S-PMWRA-06-GR-048
            for the Year Ended December 31, 2007                                9

EXHIBIT H - Fund Accountability Statement for Grant # S-PMWRA-06-GR-056
            for the Year Ended December 31, 2007                                10

EXHIBIT I - Fund Accountability Statement for Grant # S-PMWRA-07-GR-077
            for the Year Ended December 31, 2007                                11

EXHIBIT J - Fund Accountability Statement for Grant # S-PMWRA-06-GR-004
            for the Year Ended December 31, 2007                                12

EXHIBIT K - Fund Accountability Statement for Grant # S-PMWRA-07-GR-014
            for the Year Ended December 31, 2007                                13

EXHIBIT L - Fund Accountability Statement for Grant # DFD-G-00-05-00021-00
            for the Year Ended December 31, 2007                                14

NOTES TO FINANCIAL STATEMENTS                                                  15-16




                                                -1-                                  I-2
                            GELMAN, ROSENBERG & FREEDMAN
                               CERTIFIED PUBLIC ACCOUNTANTS

                                  INDEPENDENT AUDITORS' REPORT


To the Board of Directors
Norwegian People’s Aid
Oslo, Norway

        We have audited the accompanying fund accountability statements of Norwegian People’s Aid
(NPA) for the year ended December 31, 2007. These fund accountability statements are the responsibility
of NPA’s management. Our responsibility is to express an opinion on these statements based on our audit.

         We conducted our audit of the fund accountability statements in accordance with U.S. Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the fund accountability
statements are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the fund accountability statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

          The results of our tests disclosed the following questioned costs as detailed in the fund
accountability statements and in note 2 to the fund accountability statements: (1) $1,579 of costs that are
explicitly questioned because they are either outside the dates of the awards or did were not in compliance
with the requirements stipulated in the grant awards for such costs; and (2) $1,734 of costs which were not
supported with adequate documentation

        In our opinion, except for the effects of the questioned costs discussed in the preceding paragraph,
the fund accountability statements referred to above present fairly, in all material respects, costs incurred
and reimbursed by the United States Government funding agencies for the year ended December 31, 2007,
in accordance with the terms of the agreements and in conformity with the basis of accounting described in
Note 1.

         In accordance with U.S. Government Auditing Standards, we have also issued our reports dated
November 9, 2009, on our consideration of NPA’s internal control over financial reporting and our tests of
compliance with certain provisions of laws and regulations. Those reports are an integral part of an audit
performed in accordance with U.S. Government Auditing Standards and should be read in conjunction with
this Independent Auditors’ Report in considering the results of our audit.

                                  ________________________________

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 9, 2009

                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION
                                                     -2-                                                   I-3
                                                                                                         EXHIBIT A

                                          NORWEGIAN PEOPLE'S AID

                               SUMMARY FUND ACCOUNTABILITY STATEMENT
                                 FOR THE YEAR ENDED DECEMBER 31, 2007


                                                                              2007
                                                                 Questioned Costs

                                                                                      Expenditures
                                                                        Unsupported   in Excess of
                                              Actual         Ineligible   (Note 4)       Award            Eligible
CASH RECEIPTS
  Award # DFD-G-00-07-00038-00             $ (4,671,128)     $     -     $      -     $        -     $ (4,671,128)
  Award # DFD-G-00-06-00070-00                 (831,964)           -            -              -         (831,964)
  Award # FFP-A-00-04-00021-00               (7,827,300)           -            -              -       (7,827,300)
  Award # S-PMWRA-06-GR-014                         -              -            -              -              -
  Award # S-PMWRA-07-GR-064                         -              -            -              -              -
  Award # S-PMWRA-06-GR-048                  (1,419,000)           -            -              -       (1,419,000)
  Award # S-PMWRA-06-GR-056                         -              -            -              -              -
  Award # S-PMWRA-07-GR-077                     (99,914)           -            -              -          (99,914)
  Award # S-PMWRA-06-GR-004                     (25,000)                                       -          (25,000)
  Award # S-PMWRA-07-GR-014                  (1,244,413)           -            -              -       (1,244,413)

        Total cash receipts                 (16,118,719)           -            -              -         (16,118,719)

IN KIND CONTRIBUTIONS

  Award # FFP-A-00-04-00021-00               (3,258,300)           -            -              -          (3,258,300)

COSTS INCURRED

  Award # DFD-G-00-07-00038-00                5,070,687             -            -             -          5,070,687
  Award # DFD-G-00-06-00070-00                  417,955             -            -             -            417,955
  Award # FFP-A-00-04-00021-00               11,476,838             -            -             -         11,476,838
  Award # S-PMWRA-06-GR-014                     165,104             -            -              -           165,104
  Award # S-PMWRA-07-GR-064                     108,680             -            -          8,680           100,000
  Award # S-PMWRA-06-GR-048                   1,224,720          1,479        1,734        63,700         1,157,807
  Award # S-PMWRA-06-GR-056                      13,648              -           -              -            13,648
  Award # S-PMWRA-07-GR-077                      33,266            100           -              -            33,166
  Award # S-PMWRA-06-GR-004                     415,417              -           -          7,072           408,345
  Award # S-PMWRA-07-GR-014                   1,179,779              -           -                        1,179,779

        Total costs incurred                 20,106,094      $   1,579   $    1,734   $     79,452       20,023,329

Excess of expenditures over receipts                                                                        646,310

Balance due from (to) U.S. Government
  at beginning of year                                                                                      (316,864)

BALANCE DUE FROM (TO) U.S. GOVERNMENT
  AT END OF YEAR                                                                                     $      329,446




                                  See accompanying notes to financial statements.

                                                           -3-                                                       I-4
                                                                                                                         EXHIBIT B

                                                  NORWEGIAN PEOPLE’S AID

                     FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-07-00038-00
                                FOR THE YEAR ENDED DECEMBER 31, 2007



      UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

      Award # DFD-G-00-07-00038-00 - Sudan

      Period of Performance: January 1, 2007 to December 31, 2007

      Total Amount Awarded: $5,070,687

      Total Obligated Amount: $5,070,687



      Balance Due from(to) USAID at December 31, 2006                                                                $        -

            Receipts                                                                                                  (4,671,128)

            Eligible Expenditures                                                                                        5,070,687

      BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2007                                                                $    399,559



                                       Questioned Costs
                                             (Note 2)                Total         * Non      Total
                        Actual      Ineligible Unsupported          Eligible     Compliance Cumulative           Budget     Variance

Food Security and
 Rural Livelihoods
 OFDA                 $5,070,687       $    -         $    -      $5,070,687       $57,055       $5,070,687 $5,070,687         $     -




     *The amounts indicated above were not in compliance with NPA’s established procurement policies. The amounts have not been
     categorized as questioned costs due to the fact that proper contracts, invoices and other supporting documentation was available
     for inspection. However, please refer to our finding on “Procurement Documentation” in Section IV of our report.




                                       See accompanying notes to financial statements.

                                                                   -4-                                                             I-5
                                                                                                      EXHIBIT C

                                           NORWEGIAN PEOPLE’S AID

                FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-06-00070-00
                           FOR THE YEAR ENDED DECEMBER 31, 2007



     UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

     Award # DFD-G-00-06-00070-00 - Sudan

     Period of Performance: January 1, 2006 to April 30, 2007

     Total Amount Awarded: $6,509,880

     Total Obligated Amount: $6,509,880



     Balance Due from(to) USAID at December 31, 2006                                                  $ 384,595

          Receipts                                                                                     (831,964)

          Eligible Expenditures                                                                         417,955

     BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2007                                                  $ (29,414)



                                 Questioned Costs
                                       (Note 2)          Total       2006       Total
                     Actual   Ineligible Unsupported    Eligible   Cumulative Cumulative     Budget     Variance

Food Security and
 Rural Livelihoods
 OFDA              $417,955    $    -        $   -     $417,955    $ 6,062,511   $6,480,466 $6,509,880 $(29,414)




                                   See accompanying notes to financial statements.

                                                         -5-                                                 I-6
                                                                                                                                  EXHIBIT D

                                                         NORWEGIAN PEOPLE’S AID

                       FUND ACCOUNTABILITY STATEMENT FOR GRANT # FFP-A-00-04-00021-00
                                  FOR THE YEAR ENDED DECEMBER 31, 2007



       UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

       Award # FFP-A-00-04-00021-00 - Sudan

       Period of Performance: January 1, 2004 to December 31, 2007

       Total Estimated Amount Awarded: $44,249,583

       Total Obligated Amount: $44,249,583

                 In-Kind:        $12,482,400
                 Inland Freight: $ 8,651,100
                 ITSH and 202e: $23,116,083
                                                                                                                Cash              In-Kind

       Balance Due from(to) USAID at December 31, 2006                                                     $ (125,153) $                -

                 Receipts                                                                                   (7,827,300)           (3,258,300)

                 Eligible Expenditures:
                    In-Kind                                                                                         -             3,258,300
                    Inland Freight                                                                             2,070,378               -
                    ITSH and 202e                                                                              6,148,160               -

       BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2007                                                     $     266,085      $         -



                                         Questioned Costs
                                               (Note 2)          Total         * Non           2006              Total
                         Actual       Ineligible Unsupported    Eligible     Compliance      Cumulative        Cumulative      Budget         Variance
In-Kind:
 Commodity value       $ 2,005,700    $   -      $   -         $ 2,005,700     $     -       $ 5,584,200       $ 7,589,900   $ 7,510,600     $     79,300
 Ocean freight           1,252,600        -          -           1,252,600           -         3,642,400         4,895,000     4,971,800          (76,800)

                        3,258,300         -          -           3,258,300           -         9,226,600        12,484,900    12,482,400           2,500

Inland Freight          2,070,378         -          -           2,070,378         594,864     4,985,121         7,055,499     8,651,100      (1,595,601)

Internal Transport,
  Storage and
  Handling (ITSH)       5,520,878         -          -           5,520,878         213,799    14,526,924        20,047,802    21,337,791      (1,289,989)
Rehabilitation of
 Rural Access
 Roads (202e)               627,282       -          -            627,282            -         1,129,892         1,757,174     1,778,292          (21,118)

                        6,148,160         -          -           6,148,160         213,799    15,656,816        21,804,976    23,116,083      (1,311,107)

TOTAL                 $11,476,838     $   -      $   -         $11,476,838     $808,663      $29,868,537       $41,345,375   $44,249,583     $(2,904,208)

       *The amounts indicated above were not in compliance with NPA’s established procurement policies. The amounts have not been
       categorized as questioned costs due to the fact that proper contracts, invoices and other supporting documentation was available
       for inspection. However, please refer to our finding on “Procurement Documentation” in Section IV of our report.



                                              See accompanying notes to financial statements.

                                                                      -6-                                                                   I-7
                                                                                               EXHIBIT E

                                       NORWEGIAN PEOPLE’S AID

            FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-06-GR-014
                       FOR THE YEAR ENDED DECEMBER 31, 2007



 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-06-GR-014 - Sudan

 Period of Performance: March 1, 2006 to February 28, 2007

 Total Amount Awarded: $700,000

 Total Obligated Amount: $700,000



 Balance Due from(to) U.S. DOS at December 31, 2006                                           $(165,104)

     Receipts                                                                                            -

     Eligible Expenditures                                                                         165,104

 BALANCE DUE FROM(TO) U.S. DOS AT DECEMBER 31, 2007                                            $         -


                                 Questioned Costs
                                       (Note 2)        Total     2006       Total
                        Actual Ineligible Unsupported Eligible Cumulative Cumulative Budget Variance

Mine Action in Sudan   $165,104    $    -     $   -         $165,104 $534,896   $700,000 $700,000    $       -




                             See accompanying notes to financial statements.

                                                      -7-                                                    I-8
                                                                                                 EXHIBIT F

                                     NORWEGIAN PEOPLE’S AID

            FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-07-GR-064
                       FOR THE YEAR ENDED DECEMBER 31, 2007



 UNITED STATES DEPARTMENT OF STATE

 Award # S-PMWRA-07-GR-064 - Sudan

 Period of Performance: June 1, 2007 to May 31, 2008

 Total Amount Awarded: $100,000

 Total Obligated Amount: $100,000



 Balance Due from(to) U.S. DOS at December 31, 2006                                              $      -

     Receipts                                                                                           -

     Eligible Expenditures                                                                        108,680

     Expenditures in Excess of Award                                                                  (8,680)

 BALANCE DUE FROM(TO) U.S. DOS AT DECEMBER 31, 2007                                              $100,000



                                        Questioned Costs
                                              (Note 2)         Total       Total
                        Actual      Ineligible Unsupported    Eligible   Cumulative   Budget         Variance

Mine Action in Sudan   $108,680       $   -       $      -   $108,680     $108,680    $100,000        $8,680




                             See accompanying notes to financial statements.

                                                   -8-                                                      I-9
                                                                                                   EXHIBIT G

                                          NORWEGIAN PEOPLE’S AID

                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-06-GR-048
                            FOR THE YEAR ENDED DECEMBER 31, 2007



UNITED STATES DEPARTMENT OF STATE

   Award #S-PMWRA-06-GR-048 - Cambodia

   Period of Performance: August 1, 2006 to September 30, 2007

   Total Amount Awarded: $1,837,000

   Total Obligated Amount: $1,837,000



Balance due from(to) U.S. DOS at December 31, 2006                                                $      261,193

   Receipts                                                                                        (1,419,000)

   Eligible Expenditures                                                                               1,221,507

   Expenditures in Excess of Award                                                                       (63,700)

BALANCE DUE FROM(TO) U.S. DOS AT DECEMBER 31, 2007                                                 $        -



                                Questioned Costs
                                     (Note 2)           Total        2006       Total
                   Actual     Ineligible Unsupported   Eligible    Cumulative Cumulative     Budget       Variance

Direct costs:
  Personnel
   costs          $ 171,756      $ -          $ -    $ 171,756       $120,620 $ 292,376 $ 320,091 $(27,715)
  Contractual       842,480         -           -      842,480        428,894  1,271,374 1,313,374 (42,000)
  Other              52,037       1,288        1,510    49,239         40,524     89,763    45,141  44,622

Total direct
  costs           1,066,273      1,288         1,510   1,063,475      590,038   1,653,513    1,678,606     (25,093)
Indirect costs
  (Note 3)          158,447        191           224     158,032       89,155      247,187    158,394      88,793

TOTAL            $1,224,720     $1,479        $1,734 $1,221,507      $679,193 $1,900,700 $1,837,000       $ 63,700




                                 See accompanying notes to financial statements.

                                                       -9-                                                  I-10
                                                                                                  EXHIBIT H

                                          NORWEGIAN PEOPLE’S AID

                 FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-06-GR-056
                            FOR THE YEAR ENDED DECEMBER 31, 2007



  UNITED STATES DEPARTMENT OF STATE

     Award #S-PMWRA-06-GR-056 - Cambodia

     Period of Performance: April 1, 2006 to September 30, 2007

     Total Amount Awarded: $38,404

     Total obligated amount: $38,404



  Balance due from(to) U.S. DOS at December 31, 2006                                                $(25,468)

     Receipts                                                                                             -

     Eligible Expenditures                                                                              13,648

  BALANCE DUE FROM(TO) U.S. DOS AT DECEMBER 31, 2007                                                $(11,820)



                               Questioned Costs
                                    (Note 2)             Total          2006       Total
                 Actual      Ineligible Unsupported     Eligible      Cumulative Cumulative   Budget    Variance

Travel           $11,882      $    -         $   -       $11,882         $11,238    $23,120   $35,725   $(12,605)
Indirect costs
  (Note 3)         1,766           -             -            1,766        1,698      3,464     2,679         785

TOTAL            $13,648      $    -         $   -       $13,648         $12,936    $26,584   $38,404   $(11,820)




                                  See accompanying notes to financial statements.

                                                       -10-                                               I-11
                                                                                               EXHIBIT I

                                       NORWEGIAN PEOPLE’S AID

              FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-07-GR-077
                         FOR THE YEAR ENDED DECEMBER 31, 2007



UNITED STATES DEPARTMENT OF STATE

   Award #S-PMWRA-07-GR-077 - Cambodia

   Period of Performance: April 27, 2007 to January 31, 2008

   Total Amount Awarded: $99,914

   Total obligated amount: $99,914

   Cost-share required: $132,135



Balance due from(to) U.S. DOS at December 31, 2006                                              $    -

   Receipts                                                                                      (99,914)

   Eligible Expenditures                                                                            33,166

BALANCE DUE FROM(TO) U.S. DOS AT DECEMBER 31, 2007                                              $(66,748)



                                  Questioned Costs
                                       (Note 2)              Total       Total
                     Actual     Ineligible Unsupported      Eligible   Cumulative    Budget    Variance

Direct costs:
 Personnel           $12,708         $-         $   -        $12,708       $12,708   $47,285    $(34,577)
 Travel                  541          -             -            541           541     1,488        (947)
 Equipment            14,067          -             -         14,067        14,067    23,123      (9,056)
 Supplies                522          -             -            522           522     5,345      (4,823)
 Running costs         1,124           87           -          1,037         1,037     8,891      (7,854)

Total direct costs    28,962           87           -         28,875        28,875    86,132        (57,257)
Indirect costs
  (Note 3)             4,304           13           -          4,291         4,291    13,782         (9,491)

TOTAL                $33,266         $100       $   -        $33,166       $33,166   $99,914    $(66,748)




                               See accompanying notes to financial statements.

                                                    -11-                                                 I-12
                                                                                                        EXHIBIT J

                                             NORWEGIAN PEOPLE’S AID

                FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-06-GR-004
                           FOR THE YEAR ENDED DECEMBER 31, 2007



    UNITED STATES DEPARTMENT OF STATE

    Award # S-PMWRA-06-GR-004 - Angola

    Period of Performance: May 1, 2006 to April 30, 2007

    Total Amount Awarded: $1,550,000

    Total Obligated Amount: $1,550,000



    Balance Due from(to) USDOS at December 31, 2006                                                     $(383,345)

         Receipts                                                                                           (25,000)

         Eligible Expenditures                                                                              415,417

         Expenditures in Excess of Award                                                                     (7,072)

    BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2007                                                     $       -



                                     Questioned Costs
                                           (Note 2)              Total       2006       Total
                         Actual    Ineligible Unsupported       Eligible   Cumulative Cumulative    Budget      Variance

Mine Action in Angola   $415,417     $   -       $   -      $415,417       $1,141,655   $1,557,072 $1,550,000       $7,072




                                   See accompanying notes to financial statements.

                                                         -12-                                                       I-13
                                                                                                 EXHIBIT K

                                     NORWEGIAN PEOPLE’S AID

            FUND ACCOUNTABILITY STATEMENT FOR GRANT # S-PMWRA-07-GR-014
                       FOR THE YEAR ENDED DECEMBER 31, 2007



UNITED STATES DEPARTMENT OF STATE

Award # S-PMWRA-07-GR-014 – Angola

Period of Performance: May 1, 2007 to April 30, 2008

Total Amount Awarded: $1,550,000

Total Obligated Amount: $1,550,000



Balance Due from(to) USDOS at December 31, 2006                                             $         -

     Receipts                                                                                   (1,244,413)

     Eligible Expenditures                                                                       1,179,779

BALANCE DUE FROM(TO) USDOS AT DECEMBER 31, 2007                                             $      (64,634)



                                       Questioned Costs
                                             (Note 2)           Total        Total
                         Actual      Ineligible Unsupported    Eligible    Cumulative   Budget     Variance

Mine Action in Angola   $1,179,779     $   -       $     -    $1,179,779   $1,179,779 $1,550,000 $370,221




                             See accompanying notes to financial statements.

                                                  -13-                                                    I-14
                                                                           EXHIBIT L

                                     NORWEGIAN PEOPLE’S AID

          FUND ACCOUNTABILITY STATEMENT FOR GRANT # DFD-G-00-05-00021-00
                     FOR THE YEAR ENDED DECEMBER 31, 2007



UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

Award # DFD-G-00-05-00021-00 - Sudan

Period of Performance: January 1, 2005 to September 30, 2006

Total Amount Awarded: $7,497,238

Total Obligated Amount: $7,497,238

Total Cost Share: $1,459,387




Balance Due from(to) USAID at December 31, 2006                            $(263,582)

  Receipts                                                                      -

  Eligible Expenditures                                                         -

BALANCE DUE FROM(TO) USAID AT DECEMBER 31, 2007                            $(263,582)




                                              -14-                                  I-15
                                       NORWEGIAN PEOPLE’S AID

                                  NOTES TO FINANCIAL STATEMENTS
                                        DECEMBER 31, 2007



1.    SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES AND GENERAL INFORMATION

      Organization -

       Norwegian People’s Aid (NPA) is a non-governmental organization (NGO) located in Oslo,
       Norway. NPA is a membership governed organization, which stands on four pillars of equal
       worth: youth work, health and rescue work, socially targeted work and international work. NPA
       bases much of its activity on members’ voluntary work.

       In NPA’s national, international youth, and health and rescue work, the following areas are
       promoted:

             The fight against oppression, poverty and unjust distribution.
             The fight against racism and discrimination.
             Work for equality and against violence and injustice.
             Prevention, voluntary engagement and competence building.

      Basis of presentation -

       The accompanying fund accountability statements have been prepared on the accrual basis of
       accounting and present only the transactions of NPA’s program grants and contracts with the
       United States Government. Accordingly, the fund accountability statements are not intended to
       present fairly all transactions of NPA taken as a whole.

      Property and equipment -

       NPA’s policy is to expense all property and equipment acquired with U.S. Government funding and
       charge it to the corresponding grant award. Title to the property and equipment vests to NPA in
       accordance with the standard provisions.

     Currency valuation -

       NPA’s financial transactions are recorded using the Norwegian Kroner. NPA’s policy is to convert all
       monthly revenue and expense transactions incurred in foreign currencies using a weighted
       average; and to convert all foreign currency assets and liabilities at the end of the month using the
       spot rate on the last day of the month between the Kroner and the foreign currencies.

       For purposes of the accompanying fund accountability statements, all revenue and expense
       transactions have been converted to the United States Dollar using a monthly weighted average
       methodology between the Kroner and the Dollar.

     Fund balance -

       The amounts reported in the accompanying fund accountability statements as amounts due
       from(to) the United Stated Government represent the fund balance of each respective grant
       award as of December 31, 2007.


2.    INELIGIBLE AND UNSUPPORTED COSTS

      Ineligible costs consist of expenses included in grant expenditures that did not meet certain criteria
      stipulated in the provisions of the grant awards. Unsupported costs consist of expenses included in
      grant expenditures that did not have appropriate documentation to support the expense.


                                                    -15-                                                I-16
                                     NORWEGIAN PEOPLE’S AID

                                NOTES TO FINANCIAL STATEMENTS
                                      DECEMBER 31, 2007



2.   INELIGIBLE AND UNSUPPORTED COSTS (Continued)

     Following is a summary, by grant, of the ineligible and unsupported costs:

                                    Grant # S-PMWRA-06-GR-048
                           Distribution        Ineligible Unsupported

                        Other                      $ 1,288             $ 1,510
                        Indirect (Note 3)              191                 224

                                                   $ 1,479             $ 1,734


                                    Grant # S-PMWRA-07-GR-077
                           Distribution        Ineligible  Unsupported

                        Running costs              $     87              $   -
                        Indirect (Note 3)                13                  -

                                                   $     100             $   -


3.   INDIRECT CHARGES

     The accompanying indirect charges have been calculated using NPA’s actual indirect rates for the
     year ended December 31, 2007 of 14.86%. On certain grant agreements, the cumulative indirect
     costs charged exceeded the indirect budget line item as proposed by NPA. However, the formal grant
     awards stipulated grant budgets by objective rather than by specific line item.

     The accompanying fund accountability statements reflect the indirect costs calculated on all costs
     except the sub-contract amounts.




                                                  -16-                                             I-17
                            GELMAN, ROSENBERG & FREEDMAN
                                 CERTIFIED PUBLIC ACCOUNTANTS

                                  INDEPENDENT AUDITORS' REPORT
                               ON THE INTERNAL CONTROL STRUCTURE



To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


         We have audited the fund accountability statements of Norwegian People’s Aid’s (NPA) as of and
for the year ended December 31, 2007, and have issued our report thereon dated November 9, 2009.

         We conducted our audit in accordance with U.S. Government Auditing Standards, issued by the
Comptroller General of the United States. In planning and performing our audit, we considered NPA’s
internal control over financial reporting (internal control) as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of NPA’s internal control. Accordingly, we do not express an opinion on the
effectiveness of NPA’s internal control.

         Our consideration of NPA’s internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in NPA’s internal control that might be significant
deficiencies or material weaknesses and therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified. However, as discussed below, we
identified certain deficiencies in NPA’s internal control that we considered to be material weaknesses and
other deficiencies that we consider to be significant deficiencies.

        A deficiency in NPA’s internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in NPA’s internal control, such that there is a reasonable possibility that a material
misstatement of NPA’s financial statements will not be prevented, or detected and corrected on a timely
basis. We consider the following deficiencies in NPA’s internal control be material weaknesses:

                                         MATERIAL WEAKNESSES
        Sudan:

            NPA did not adhere to its established procurement policies and procedures (please refer to
             our comments titled “Procurement of Seeds” and “Procurement Documentation” in Section
             IV-Independent Auditors’ Report on Findings and Recommendations).

            Significant journal entries were made which were not properly supported (please refer to our
             comment titled “Journal Entries” in Section IV-Independent Auditors’ Report on Findings and
             Recommendations).




                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION
                                                                                                             II-1
           Timesheets were incomplete and there were instances where the amount of salary expense
            charged to the U.S. Government award did not correspond to the hours indicated on the
            timesheets (please refer to our comment titled “Timesheets” Section IV-Independent Auditors’
            Report on Findings and Recommendations).

           NPA did not properly monitor funds advanced to sub-recipients (please refer to our comment
            titled “Partner and Sub-Recipient Monitoring” in Section IV-Independent Auditors’ Report on
            Findings and Recommendations).

           Bank reconciliations were not properly completed, reviewed or approved and petty cash
            counts were not properly conducted or accurate (please refer to our comments titled “Cash
            Management” in Section IV-Independent Auditors’ Report on Findings and
            Recommendations).

        Angola:

           Significant journal entries were made which were not properly supported (please refer to our
            comment titled “Journal Entries” in Section IV-Independent Auditors’ Report on Findings and
            Recommendations).

           Timesheets were missing or incomplete (please refer to our comment titled “Timesheets”
            Section IV-Independent Auditors’ Report on Findings and Recommendations).

           NPA did not adhere to its established procurement policies and procedures for the purchase
            of equipment (please refer to our comments titled “Procurement of Equipment” in Section IV-
            Independent Auditors’ Report on Findings and Recommendations).


                                       SIGNIFICANT DEFICIENCIES
        A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit the attention by those charged with
governance. We consider the following deficiencies in NPA’s internal control to be significant deficiencies:

        Sudan:

           Inventory was not properly controlled (please refer to our comment titled “Control of
            Inventory” in Section IV-Independent Auditors’ Report on Findings and Recommendations).

           Personnel files were incomplete (please refer to our comment titled “Personnel Contracts” in
            Section IV-Independent Auditors’ Report on Findings and Recommendations).

           Payments were made to local staff without proper documentation (please refer to our
            comment titled “Payment of Local Staff Salaries” in Section IV-Independent Auditors’ Report
            on Findings and Recommendations).

           The field office accounting policy and procedures manual was outdated (please refer to our
            comment titled “Accounting Policies and Procedures Manual” in Section IV-Independent
            Auditors’ Report on Findings and Recommendations).

           Competency of the accounting staff should be evaluated (please refer to our comment titled
            “Staffing of the Field Office Accounting Department” in Section IV-Independent Auditors’
            Report on Findings and Recommendations).




                                                                                                           II-2
        Sudan (continued):

           Financial records were not properly filed and difficult to locate (please refer to our comment
            titled “Organization of Financial Documents” in Section IV-Independent Auditors’ Report on
            Findings and Recommendations).

           Numerous instances of payment vouchers not properly signed and dated (please refer to our
            comment titled “Internal Payment Vouchers” in Section IV-Independent Auditors’ Report on
            Findings and Recommendations).

           Instances of non-compliance with USAID’s special grant provision on anti-terrorism (Please
            refer to our comment titled “Compliance with Anti-terrorism Provision” in Section IV-
            Independent Auditors’ Report on Findings and Recommendations).

        Angola:

           Salary Sheets were not signed by either the employees or their supervisors (please refer to
            our comment titled “Salary Sheets” in Section IV-Independent Auditors Report on Findings and
            Recommendations).

           Personnel files were incomplete (please refer to our comment titled “Personnel Contracts” in
            Section IV-Independent Auditors Report on Findings and Recommendations).

           Instances where costs were split between donors without proper documentation (Please refer
            to our comment titled “Allocation of Costs between Donors” in Section IV-Independent Auditors
            Report on Findings and Recommendations).

           Instance of shared costs that were not formally documented (Please refer to our finding titled
            “Allocation of Shared Costs” in Section IV-Independent Auditors’ Report on Findings and
            Recommendations).

        Cambodia:

           We noted an instance where documentation to support the travel expense was missing
            (please refer to our comment titled “Travel Documentation” in Section IV-Independent
            Auditors’ Report on Findings and Recommendations).

           We noted certain employee monthly salary sheets were not signed by either the employees
            or their supervisors (please refer to our comment titled “Salary Sheets” in Section IV-
            Independent Auditors’ Report on Findings and Recommendations).

                                 ________________________________


        We also noted other matters involving the internal control structure and its operation that we have
reported November 9, 2009 (please refer to Section IV-Independent Auditors’ Report on Findings and
Recommendations).

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 9, 2009
                                                                                                       II-3
                            GELMAN, ROSENBERG & FREEDMAN
                               CERTIFIED PUBLIC ACCOUNTANTS

                        INDEPENDENT AUDITORS' REPORT ON COMPLIANCE



To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


        We have audited the fund accountability statements of Norwegian People’s Aid (NPA) as of and for
the year ended December 31, 2007, and have issued our report thereon dated November 9, 2009.

        We conducted our audit in accordance with U.S. Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the fund accountability statements are free of material
misstatement resulting from violations of agreement terms and laws and regulations that have a direct and
material effect on the determination of the fund accountability statements amounts.

        Compliance with agreement terms and laws and regulations applicable to NPA is the responsibility
of NPA’s management. As part of obtaining reasonable assurance about whether the fund accountability
statements are free of material misstatement, we performed tests of NPA’s compliance with certain
provisions of agreement terms and laws and regulations. However, our objective was not to provide an
opinion on overall compliance with such provisions. Accordingly, we do not express such an opinion.

        Material instances of noncompliance are failures to follow requirements or violations of agreement
terms and laws and regulations that cause us to conclude that the aggregation of misstatements resulting
from those failures or violations is material to the fund accountability statements. The results of our audit
disclosed the following material instance of noncompliance (please refer to section IV of our report for
management’s responses to our findings):

                                                  Sudan

                                          Procurement of Seeds

December 31, 2007 Condition: Our audit testwork over the USAID awards for the year ended December
31, 2007 revealed that NPA did not follow their procurement policies and procedures when purchasing
seeds under the USAID awards.

Criteria: Subpart C of Office of Management and Budget (OMB) Circular A-110, "Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations", Sections .45 and .46, require that, for all procurement of goods and services,
some form of cost or price analysis shall be made and documented in the procurement files in connection
with every procurement action. Price analysis may be accomplished in various ways, including the
comparison of price quotations submitted, market prices and similar indicia, together with discounts. Cost
analysis is the review and evaluation of each element of cost to determine reasonableness, allocability
and allowability. In addition, procurement records and files for purchases in excess of the small purchase
threshold shall include the following at a minimum: (a) basis for contractor selection, (b) justification for
lack of competition when competitive bids or offers are not obtained, and (c) basis for award cost or price.


                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION
                                                                                                           III-1
Questioned Costs: The costs associated with this condition were supported by invoices and the required
seed certificates and thus, have not been questioned, but have been highlighted and identified as not
being in compliance with NPA’ procurement policies in the accompanying fund accountability statements.

Context, Effect and Cause: NPA-Sudan did not adhere to established guidelines with respect to the
procurement process. Certain goods and services may have been purchased at above prevailing market
prices.

Recommendation: We continue to recommend that the individuals responsible for the procurement of
seeds be aware of the U.S. Government regulations before procuring the seeds. If it is deemed too difficult
to procure the proper certificates, we recommend that the staff responsible for procuring the seeds request
a waiver from USAID (this is generally done at the time a proposal is submitted to USAID).

                                      Procurement Documentation

December 31, 2007 Condition: As a result of our audit testwork over NPA-Sudan’s procurement
process, we noted the following deficiencies:

       Non-compliance with established NPA procurement policies (including the receipt of bids and the
        review and acceptance by procurement committee);
       Sole source justification was not documented;
       Justification for selection of vendors was not documented.

Criteria: Subpart C of Office of Management and Budget (OMB) Circular A-110, "Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations", Sections .45 and .46, require that, for all procurement of goods and services,
some form of cost or price analysis shall be made and documented in the procurement files in connection
with every procurement action. Price analysis may be accomplished in various ways, including the
comparison of price quotations submitted, market prices and similar indicia, together with discounts. Cost
analysis is the review and evaluation of each element of cost to determine reasonableness, allocability
and allowability. In addition, procurement records and files for purchases in excess of the small purchase
threshold shall include the following at a minimum: (a) basis for contractor selection, (b) justification for
lack of competition when competitive bids or offers are not obtained, and (c) basis for award cost or price.

Questioned Costs: The costs associated with this condition were supported by invoices and thus, have
not been questioned, but have been highlighted and identified as not being in compliance with NPA’
procurement policies in the accompanying fund accountability statements.

Context, Effect and Cause: NPA-Sudan did not adhere to established guidelines with respect to the
procurement process. Certain goods and services may have been purchased at above prevailing market
prices.

Recommendation: We strongly recommend that all employees responsible for the procurement of goods
and services be reminded of NPA’s current procurement policies. All responsible employees should also
be reminded of the fact that non-compliance with such policies may put NPA at risk of returning U.S.
Government funds, which were used to pay for goods and services for which NPA did not adhere to its
procurement policies.

                                 Partner and Sub-Recipient Monitoring

December 31, 2007 Condition: Based upon our audit testwork over the monitoring and accounting for
sub-recipient transactions, we noted the following:

       Advances to partners/sub-recipients not properly reconciled;
       Site visits not documented;
       Documentation of selection process not documented;

                                                                                                         III-2
       Agreements between the partners/sub-recipients and NPA not signed;
       Financial reports not submitted by partners/sub-recipients;
       Lack of documentation to support partner/sub-recipient expenditures.

Criteria: Subpart C of Office of Management and Budget (OMB) Circular A-110, "Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations", Section .51, states that recipients are responsible for managing and monitoring
each project, program, sub-award, function or activity funded by each Federal award.

Questioned Costs: None noted.

Context, Effect and Cause: The failure by NPA to adhere to strict policies and procedures with respect
to the monitoring of sub-grantees greatly enhances the possibility of errors, omissions, and unallowable
expenditures being incurred by the sub-recipients.

Recommendation: Based upon the aforementioned findings noted above, we strongly recommend that
the management of NPA implement strict policies and procedures with respect to the monitoring of
partners/sub-recipients. Additionally, we recommend that the staff of NPA be notified of such policies and
procedures and that the HO staff follow-up with the field staff to ensure that the partner/sub-recipient
monitoring is being conducted in accordance with the policies and procedures.

                              Compliance with Anti-Terrorism Provision

December 31, 2007 Condition: Our audit testwork over Norwegian People’s Aid’s U.S. Agency for
International Development grants revealed that Norwegian People’s Aid did not comply with the special
grant provision on “anti-terrorism”.

Criteria: As outlined in each USAID award, recipients of U.S. Government funds must adhere to the
United States Government’s requirements on screening all potential vendors, suppliers and sub-
contractors/grantees against the United States Department of States Terrorism watch list. The screening
of all potential vendors, suppliers and sub-contractors/grantees must be documented in writing.

Questioned Costs: None noted

Context, Effect and Cause: Failure to screen potential vendors, suppliers and sub-contractors/grantees
against the terrorism watch list enhances the possibility that U.S. Government funds may inadvertently be
provided to individuals or organizations deemed to be terrorists by the United States Government.

Recommendation: We continue to recommend that all contractors and employees paid by funds
provided by USAID be properly screened to ensure that Norwegian People’s Aid is not funding terrorists
or terrorist organizations as defined by the U.S. Government.

                                                 Angola

                                     Procurement Documentation

December 31, 2007 Condition: Our audit revealed that NPA-Angola did not properly document the
procurement of equipment purchased with U.S. Department of State funds in accordance with policies
and procedures.

Criteria: Subpart C of Office of Management and Budget (OMB) Circular A-110, "Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and Other
Non-Profit Organizations", Sections .45 and .46, require that, for all procurement of goods and services,
some form of cost or price analysis shall be made and documented in the procurement files in connection
with every procurement action. Price analysis may be accomplished in various ways, including the
comparison of price quotations submitted, market prices and similar indicia, together with discounts.


                                                                                                      III-3
Cost analysis is the review and evaluation of each element of cost to determine reasonableness,
allocability and allowability. In addition, procurement records and files for purchases in excess of the
small purchase threshold shall include the following at a minimum: (a) basis for contractor selection, (b)
justification for lack of competition when competitive bids or offers are not obtained, and (c) basis for
award cost or price.

Questioned Costs: The costs associated with this condition were supported by invoices and thus have
not been questioned in the accompanying fund accountability statements.

Context, Effect and Cause: NPA-Sudan did not adhere to established guidelines with respect to the
procurement process. Certain goods and services may have been purchased at above prevailing market
prices.

Recommendation: We strongly recommend that all employees responsible for the procurement of goods
and services be reminded of NPA’s current procurement policies. All responsible employees should also
be reminded of the fact that non-compliance with such policies may put NPA at risk of returning U.S.
Government funds, which were used to pay for goods and services for which NPA did not adhere to its
procurement policies.

                Allocation of Costs between Donors and Allocation of Shared Costs

2006 Condition: NPA-Angola established a percentage methodology in order to allocate costs between
different donors. The current methodology is based upon a head count of staff working on projects funded
by different donors. However, the allocation percentage was based on information effective through 2005
and was not adjusted to reflect changes during the current year. In addition, our audit work revealed that
shared costs continued to be based upon an estimated percentage.

Criteria: Recipients of U.S. Government funds are required to maintain an appropriate system of internal
control. An appropriate system of internal control would encompass policies and procedures which would
allow for the proper segregation of costs based on a formally documented methodology.

Questioned Costs: None noted

Context, Effect and Cause: Without a formal policy which establishes how certain shared costs are to be
allocated between donors there exists the possibility that certain the U.S. Government may be charged in
appropriate or excess costs.

2006 Recommendation: We recommend NPA-Angola establish procedures to review and revise, if
necessary, their cost allocations during the year. In addition, with the implementation of timesheets in
February, 2006, we strongly recommend that the shared costs be allocated based upon actual
percentages calculated from actual time reported on the timesheets.

December 31, 2007 Status: NPA Angola established a cost allocation methodology based on staff
counts. These costs are allocated on a regular basis. Equipment costs are allocated based on the
location and funder. In addition, NPA-Angola created a pool of shared costs to allocate among its donors.
This allocation is done on a monthly basis and is based on actual costs.

                              Compliance with Anti-Terrorism Provision

December 31, 2007 Condition: Our audit testwork over NPA’s U.S. Department of State (USDOS)
grants revealed that NPA-Angola did not comply with Executive Order 13224, Blocking Property and
Prohibiting Transactions Who Commit, Threaten to Commit, or Support Terrorism.

Criteria: As outlined in each USDOS award, recipients of U.S. Government funds must adhere to the
United States Government’s requirements on screening all potential vendors, suppliers and sub-
contractors/grantees against the United States Department of States Terrorism watch list. The screening
of all potential vendors, suppliers and sub-contractors/grantees must be documented in writing.


                                                                                                      III-4
Questioned Costs: None noted

Context, Effect and Cause: Failure to screen potential vendors, suppliers and sub-contractors/grantees
against the terrorism watch list enhances the possibility that U.S. Government funds may inadvertently be
provided to individuals or organizations deemed to be terrorists by the United States Government.

Recommendation: We recommend that all contractors and employees paid by funds provided by
USDOS be properly screened to ensure that NPA is not funding terrorists or terrorist organizations as
defined by the U.S. Government.


                                 ________________________________


        We considered the material instance of noncompliance in forming our opinion on whether NPA’s
2007 fund accountability statements are presented fairly, in all material respects, in accordance with the
terms of the agreements and in conformity with the basis of accounting described in Note 1 to the fund
accountability statements, and this report does not affect our report on the fund accountability statements
dated November 9, 2009.

         We also noted certain immaterial instances of noncompliance that we have reported to the
management of NPA in our report on findings and recommendations dated November 9, 2009 (Please
refer to Section IV-Independent Auditors’ Report on Findings and Recommendations).

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 9, 2009




                                                                                                       III-5
                            GELMAN, ROSENBERG & FREEDMAN
                                 CERTIFIED PUBLIC ACCOUNTANTS

                                   INDEPENDENT AUDITORS' REPORT
                                 ON FINDINGS AND RECOMMENDATIONS



To the Board of Directors
Norwegian People’s Aid
Oslo, Norway


        We have audited the fund accountability statements of Norwegian People’s Aid (NPA) as of and for
the year ended December 31, 2007, and have issued our report thereon dated November 9, 2009.

        With the issuance of Statement on Auditing Standards (SAS) No. 112, Communicating Internal
Control Related Matters Identified in an Audit, issued by the American Institute of Certified Public
Accountants (AICPA) in May 2006, internal control findings are to be reported as either “Significant
Deficiencies” or “Material Weaknesses”. Accordingly, the following paragraphs will define “Significant
Deficiency” and “Material Weakness”. However, because we do not believe that all matters raised in our
communication are easily categorized into the two aforementioned titles, we have added a section titled
“Other Areas of Concern”.

         In planning and performing our audit of the fund accountability statements of NPA as of and for the
year ended December 31, 2007, in accordance with auditing standards generally accepted in the United
States of America, we considered NPA’s internal control over financial reporting as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the fund accountability statements, but not
for the purpose of expressing an opinion on the effectiveness of NPA’s internal control. Accordingly, we do
not express an opinion on the effectiveness of NPA’s internal control.

         Our consideration of NPA’s internal control was for the limited purpose described in the preceding
paragraph and would not necessarily identify all deficiencies in NPA’s internal control that might be
significant deficiencies or material weaknesses. However, as discussed below, we identified deficiencies in
NPA’s internal control that we consider to be significant deficiencies.

        A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies, that
adversely affects NPA’s ability to initiate, authorize, record, process or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a remote likelihood
that a misstatement of NPA’s fund accountability statements that is more than inconsequential will not be
prevented or detected by NPA’s internal control.

        A material weakness is a significant deficiency or combination of significant deficiencies that results
in more than a remote likelihood that a material misstatement of the fund accountability statements will not
be prevented or detected by NPA’s internal control.




                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION

                                                                                                            IV-1
      We identified certain deficiencies in NPA’s internal control that we consider to be material
weaknesses, as defined above.

                                        MATERIAL WEAKNESSES
                                                 (SUDAN)
                                          Procurement of Seeds

December 31, 2005 Comment: Our audit testwork disclosed that Norwegian People’s Aid - Kenya (NPA-
Kenya) purchased various seeds during 2003 and could not provide all of the required seed certificates.
Awards from the U.S. Government stipulate that certain seed certificates are required to be obtained at the
time seeds are purchased. We recommend that NPA-Kenya advise all individuals who have the
responsibility for purchasing seeds of the U.S. Government regulations relevant to the purchase of seeds.

December 31, 2006 and 2007 Comment: Our audit testwork over the USAID awards for the years ended
December 31, 2006 revealed that once again, NPA did not procure the required seed certificates mandated
by the terms and conditions of the USAID awards. However, our audit testwork revealed that while NPA
procured the required certificates in 2007, they did not follow NPA’s established procurement policies and
procedures. We continue to recommend that the individuals responsible for the procurement of seeds be
aware of the U.S. Government regulations before procuring the seeds. If it is deemed too difficult to procure
the proper certificates, we recommend that the staff responsible for procuring the seeds request a waiver
from USAID (this is generally done at the time a proposal is submitted to USAID). In addition, we strongly
recommend that all items being procured by NPA be completed within NPA’s stipulated procurement
policies and procedures.

Management Response: This is an ongoing challenge and we recognize that since this is an ongoing
problem which is difficult to solve, we will in future ensure a waiver from USAID at the time a proposal is
submitted. We will incorporate this instruction in our procedural manual for USAID.

                                              Journal Entries

December 31, 2005 Comment: Our audit testwork revealed that numerous adjusting journal entries were
made throughout the fiscal year which was not supported with appropriate documentation. While we were
ultimately satisfied with the documentation which supported the entries, we strongly recommend that
proper documentation to support the purpose of the adjusting entry be attached to the entry and filed in
either chronological or numerical order. Proper documentation would consist of a written purpose for the
entry as well as copies of the original source documentation (i.e. invoices, purchase orders or contracts).
In addition, we strongly recommend that all adjusting journal entries be reviewed and approved.

December 31, 2006 and 2007 Comment: Our 2006 and 2007 audit testwork revealed that significant
journal entries were made throughout the fiscal years without proper supporting documentation. In
addition, the purpose for the entries was generally not well documented. We strongly recommend that all
journal entries posted to the general ledger contain a description of why the entries were proposed as
well as copies of the original source documentation (i.e. invoices, purchase orders, contracts, etc.) which
would support the entries.

Management Response: Due to the complexity of the program, different locations, long distances and
time lags, there is a challenge with supporting documentations being filed at the correct time and in the
correct location. 2009 will be a Sudan based operation with new staff and strengthening in the control
functions to ensure accuracy and accountability in all our journal entries. Head Office will also during the
transfer be present for training and capacity building in addition to various control functions to ensure
compliance in the future.




                                                                                                        IV-2
                                               Timesheets

December 31, 2005 Comment: Our review of timesheets revealed the following:

       Instances where employees did not sign their timesheets;
       Instances where timesheets were not signed by a supervisor indicating review and approval;
       Instances where hours recorded did not add across or down on the timesheets;
       Instances where it appeared employees recorded the same hours for the same days for each
        month worked.

Based upon the aforementioned, we recommend that all employees be reminded of, on a monthly basis,
the importance of filling out timesheets properly (i.e. hours worked by function, by day, signing and dating
the timesheets in ink). We also recommend that the supervisors and the accounting staff be more diligent
in their review of the timesheets.

December 31, 2006 and 2007 Comment: Our examination of the timesheet process during the fiscal
years ending December 31, 2006 and 2007 revealed the following:

       Instances where timesheets were not completed;
       Instances where employees did not sign their timesheets;
       Instances where timesheets were not signed by a supervisor indicating review and approval;
       Instances where timesheets did not indicate the programs worked on during the month:
       Instances where the salary expense recorded in the general ledger did not match the salary
        expense which should have been recorded in the general ledger based upon the hours recorded
        on the timesheets.

Based upon the aforementioned, we continue to recommend that all employees be continually reminded
of the importance of completing accurate timesheets. We also recommend that all supervisors be
reminded that all timesheets should be signed and dated indicating a proper review and approval. In
addition, the accounting staff should also be more diligent in how salary expense is recorded in the
general ledger (all costs should be supported by the hours reported on the timesheets by the employees).

Management Response: We agree with the comments and looking into the time sheet challenge will be
one of the main jobs of the new HR function and the new administration manager. However, one of the
main tasks will be competence building on the part of the management team to ensure diligence in the
reviewing and approval processes.

                                      Procurement Documentation

December 31, 2005 Comment: During the course of our audit testwork, we reviewed NPA-Kenya’s
compliance with their current procurement policies. As a result of our review, we noted that the reason for
the selection of a particular vendor was not noted. In addition, when there were instances of equipment
purchased without bids, there was no documentation to support the sole source justification. Accordingly,
we strongly recommend that at the conclusion of the procurement process, the reason for the selection of
a particular vendor be documented in writing. Additionally, we suggest that when the current procurement
policy is not followed and the vendor is selected on a sole source basis, such reasoning should be
documented in writing and kept on file with the other equipment procurement files.

December 31, 2006 and 2007 Comment: As a result of our audit testwork over NPA-Sudan’s
procurement process, we noted the following deficiencies:

       Non-compliance with established NPA procurement policies (including the receipt of bids and the
        review and acceptance by procurement committee);
       Sole source justification was not documented;
       Justification for selection of vendors was not documented.


                                                                                                       IV-3
We strongly recommend that all employees responsible for the procurement of goods and services be
reminded of NPA’s current procurement policies. All responsible employees should also be reminded of
the fact that non-compliance with such policies may put NPA at risk of returning U.S. Government funds,
which were used to pay for goods and services for which NPA did not adhere to its procurement policies.

Management Response: We agree with the comments and as a consequence of the audit and our own
internal investigations various changes have been implemented. The guidelines have been updated
especially in the area of logistics and anti-corruption measures and training in the guidelines and general
competence building in the area of logistics and procurement have been carried out. The logistics
structure has been reviewed and further logistics support has been identified. A bidding committee is in
place and the result and feedback from the committee will be reported to management both in Sudan and
in Oslo. We have also established a global procurement office which will be run from Oslo and the Sudan
office have been commanded to ensure that the supplier lists are updated at all times. This area will have
a special focus during the next couple of years with frequent HQ visits and training sessions to ensure
future compliance.

                                 Partner and Sub-Recipient Monitoring

December 31, 2006 and 2007 Comment: Based upon our audit testwork over the monitoring and
accounting for sub-recipient transactions, we noted the following:

       Advances to partners/sub-recipients not properly reconciled;
       Site visits not documented;
       Documentation of selection process not documented;
       Agreements between the partners/sub-recipients and NPA not signed;
       Financial reports not submitted by partners/sub-recipients;
       Lack of documentation to support partner/sub-recipient expenditures.

Based upon the aforementioned items, we strongly recommend that the management of NPA implement
strict policies and procedures with respect to the monitoring of partners/sub-recipients. Additionally, we
recommend that the staff of NPA be notified of such policies and procedures and that the HO staff follow-
up with the field staff to ensure that the partner/sub-recipient monitoring is being conducted in accordance
with the policies and procedures.

Management Response: Sudan is a developing country and our partners are developing structures and
new methods. We recognize that further training and competence building is necessary to ensure that
they follow procedures and policies. It will be the task of the new chief accountant in Sudan to monitor the
partners in respect of policies and procedures as well as accounting traceability and accountability.

                                            Cash Management

December 31, 2005 Comment: Our review of the monthly bank reconciliations in NPA-Kenya revealed
significant reconciling differences, which staff indicated were a result of incorrect journal entries (please
refer to our comment on Journal Entries). Accordingly, we strongly recommend that all bank
reconciliations be properly reconciled at the end of each month and all reconciling differences researched
and adjusted, if necessary. In addition, we recommend that all bank reconciliations be reviewed and
approved by either the local Finance Manager (as long as the individual is not involved in the
reconciliation process) and or the Country Representative.

December 31, 2006 and 2007 Status: Our review of the monthly bank reconciliations in Kenya revealed
significant reconciling differences which staff indicated were a result of incorrect journal entries (please
refer to our comment on Journal Entries). Accordingly, we strongly recommend that all bank
reconciliations be properly reconciled at the end of each month and all reconciling differences researched
and adjusted, if necessary. In addition we recommend that all bank reconciliations be reviewed and
approved by either the local finance manager (as long as the individual is not involved in the reconciliation
process) and or the Country Representative.


                                                                                                        IV-4
We also noted that during our audit testwork conducted in Juba and Yei, South Sudan, it came to our
attention that the petty cash counts were not accurate. Accordingly, we recommend that the petty cash
accounts be counted by two individuals on a weekly basis as well as on the last day of each month. All
counts should then be reviewed and approved by either the Finance Manager or the Country
Representative. In addition, the cash counts conducted at the end of each month should then be
reconciled to the petty cash account balances within the general ledger. Additionally, to enhance the
controls over petty cash, we suggest the Country Representative conduct surprise cash counts at least
once a month.

Management Response: During 2009, a new checking list has been introduced in respect of all balance
sheet reconciliations, which is signed off by the finance manager and the Country Director. The form is
sent to Oslo where any deviation is addressed by management. In addition, during the next six months
also require a copy of the reconciliations to ensure that there are not too many open items. We will also
introduce a new banking system with internet banking against Oslo.

                                               (ANGOLA)
                                             Journal Entries

December 31, 2007 Comment: Our review of the adjusting journal entries posted to the general ledger
for the NPA-Angola programs revealed a lack of an explanation supporting the reason for the entries. We
recommend that all journal entries clearly indicate the explanation for the entry. In addition, we
recommend all journals be signed to indicate review and approval.

Management Response: The management agrees, and will follow the recommendation.

                                               Timesheets

December 31, 2005 Comment: Our audit disclosed that NPA-Angola employees did not keep daily
timesheets indicating the respective projects that they were working on during the time period under
audit. While the U.S. Department of State grant was confined to one area of Angola (Cuanza Sul
province), and the Base Manager reported which employees were working directly on the “Mine Action
Project” each month, we strongly recommend that Norwegian People’s Aid implement a time keeping
system which would require all employees to report the project on which they were working each day.

December 31, 2006 Comment: During February, 2006 NPA-Angola implemented the use of
standardized timesheets. Our testwork over timesheets revealed the following:

       Multiple timesheets were not signed by the employee.
       Timesheets did not indicate all hours worked for the period.
       Timesheets did not indicate the hours taken for vacation, sick or holiday leave.
       One timesheet was not signed by a supervisor to indicate review and approval.

Based upon the aforementioned items, we recommend the following:

       All timesheets should be signed and dated, in ink, by the employee and their supervisor.
       All timesheets should indicate total hours worked, including total hours for vacation, sick, and
        holiday leave.

December 31, 2007 Status: We noted that timesheets have been revised to document all hours worked.
Our testwork over timesheets revealed the following:

       Missing 2 timesheets (total of $515), however, amounts not questioned since we were able to
        trace amount paid to contractual agreements and verify that location of where employees were
        working was funded strictly by DOS.
       Timesheets missing employee signature.
       Timesheets missing supervisor signature.



                                                                                                    IV-5
Management Response: As mentioned above, we will introduce a new template for timesheets and
implement it in the base and at HQ Luanda. The Mine action management will also collect the sheets
from the bases on a monthly basis, and make sure that the above requirements are followed up in the
base.

                                       Procurement of Equipment

December 31, 2007 Comment: Our audit revealed that NPA-Angola did not properly document the
procurement of equipment purchased with U.S. Department of State funds in accordance with policies
and procedures. We strongly recommend that all employees responsible for the procurement of goods
and services be reminded of NPA’s current procurement policies. All responsible employees should also
be reminded of the fact that non-compliance with such policies may put NPA at risk of returning U.S.
Government funds, which were used to pay for goods and services for which NPA did not adhere to its
procurement policies.

Management Response: The management agrees, and will follow the recommendation.



                                      SIGNIFICANT DEFICIENCIES

                                                (SUDAN)
                                          Control of Inventory

December 31, 2005 Comment: Our review of various inventory cycles and related controls revealed the
following:

      Certain inventory stores lacked bin control cards (general equipment store).
      Certain inventory stores lacked up to date inventory lists (medical supplies) or the inventory list
       did not exist (vehicles parts, general equipment store).
      Unit costs were not clearly documented on inventory lists or related inventory documents.
      The inventory process lacked identification numbers and proper documentation supporting
       distribution and use of inventory. Issue notes or inventory distributions reports filed by team did
       not clearly identify the items issued from any store. Vehicle spare parts were identified on vehicle
       job cards, however lacked the part number related to the bin cards.
      Inventory lists are not reviewed by management on a regular basis.

Subpart C of Office of Management and Budget (OMB) Circular A-110, “Uniform Administrative
Requirements for Grants and Agreements with Institutes of Higher Education, Hospitals, and Other Non-
Profit Organizations,” requires that recipient’s property management standards for equipment acquired
with Federal funds and federally-owned equipment shall include but not be limited to the following:

   (1) Equipment records shall be maintained accurately and shall include the following information.

       (i)    A description of the equipment.
       (ii)   Manufacturer’s serial number, model number, Federal stock number, national stock number,
              or other identification number.
       (iii) Source of the equipment, including the award number.
       (iv) Whether title vests in the recipient or the Federal government.
       (v)    Acquisition date (or date received, if the equipment was furnished by the Federal
              Government) and cost.
       (vi) Information from which one can calculate the percentage of Federal participation in the cost
            of the equipment (not applicable to equipment furnished by the Federal government).


                                                                                                       IV-6
        (vii) Location and condition of the equipment and the date the information was reported.
        (viii) Unit acquisition cost.
        (ix) Ultimate disposition data, including date of disposal and sales price or the method used to
             determine current fair market value where recipient compensates the Federal awarding
             agency for its share.

    (2) Equipment owned by the Federal government shall be identified to indicate Federal ownership.

    (3) A physical inventory of equipment shall be taken and the results reconciled with the equipment
        records at least once every two years (we strongly recommend annually).
        Any differences between quantities determined by the physical inspection and those shown in the
        accounting records shall be investigated to determine the causes of the difference. The recipient
        shall, in connection with the inventory, verify the existence, current utilization, and continued need
        for the equipment.

    (4) A control system shall be in effect to insure adequate safeguards to prevent loss, damage, or
        theft of the equipment. Any loss, damage, or theft of equipment shall be investigated and fully
        documented; if the equipment was owned by the Federal government, the recipient shall promptly
        notify the Federal awarding agency.

    (5) Adequate maintenance procedures shall be implemented to keep the equipment in good
        condition.

    (6) Where the recipient is authorized or required to sell the equipment, proper sales procedures shall
        be established which provide for competition to the extent practicable and result in the highest
        possible return.

December 31, 2006 and 2007 Comment: Based upon our audit testwork performed over the inventory
cycle, we noted several of the same issues reported in our 2005 comment. Accordingly, we continue to
emphasize the importance of properly maintaining control of the inventory.

Management Response: Management recognizes the challenges in respect of fixed assets and
inventory. All fixed assets are entered into the accounting program according to US and NPA guidelines.
In addition, a count is done at the close of every year to ensure correct FA and stock according to the
accounts and physical count. We will introduce a 10% regime in 2010, whereby 10% of stock and
inventory is counted every month, so in addition to the year-end count, an inventory of all fixed assets and
stock will be done during the year. In respect of inventory, we have a manual system at present, but will
introduce a new module in our accounting program, which will ensure tracking of all deliveries also in and
out of stock.

                                           Personnel Contracts

December 31, 2005 Comment: Our audit testwork over payroll revealed that certain personnel files were
not complete and up-to-date. We recommend that management review all personnel files to ensure that
all employee contracts are current and up-to-date.

December 31, 2006 and 2007 Comment: Our audit testwork over the payroll cycle revealed that the
personnel files for the years ending December 31, 2006 and 2007 continued to be incomplete. We
continue to recommend that management review all personnel files to ensure that all employee personnel
files are complete and up-to-date.

Management Response: Sudan is our largest program, and have in addition employees in a number of
different locations which make central guidelines and focus on this area vital in addition to local follow up.




                                                                                                         IV-7
During 2008 and 2009 we will centralize the HR operation in Juba and will in addition employ an
administration manager who will be in charge of HR centrally and write new guidelines to ensure local
follow up on the personnel contracts and timesheets.

                                     Payment of Local Staff Salaries

December 31, 2006 and 2007 Comment: During the course of our 2006 and 2007 audit testwork, we
noted instances where certain payments were made to employees without verification of receipt and
instances where one employee would receive funds on behalf of other employees without verification that
the other employees ultimately received such funds. We recommend that all payments to employees
evidenced by a signed receipt from the employee. We also strongly recommend that when one employee
receives funds which are to be distributed to other employees, documentation to verify that each
employee ultimately received their funds be received from each employee and maintained with the
accounting records which supported the original payment of the funds to the single employee.

Management Response: We will alter our procedures in lieu of the comments to ensure supporting and
original documentation on receipt of salary to the single employee.

                              Accounting Policies and Procedures Manual

December 31, 2006 and 2007 Comment: During our 2006 and 2007 audit work, we noted that the field
office accounting policies and procedures manual was outdated. Accordingly, we recommend that the
management of Norwegian People’s Aid revise and update the current field office accounting policies and
procedures manual. Once the revision is complete we recommend that the appropriate staff members
receive a copy and be required to sign a document indicating they have read and understand the manual.

Management Response: NPA have established and rolled out completely new central guidelines for
finance and logistics and it will be the task of local management to now update the current field office
policies in compliance with the central guidelines. This is a task for 2009.

                          Staffing of the Field Office Accounting Department

December 31, 2006 and 2007 Comment: As evidenced by the comments in our 2006 and 2007 audit
report we believe the competency of the entire field office accounting staff be re-assessed as well as the
resources required to properly staff the field office accounting department. It is our belief that the field
office accounting department must be supervised by an individual with several years experience as a
finance manager at a field office. Additionally, while the number of individuals currently employed within
the field office accounting department may be correct for an operation the size of Norwegian People’s
Aid’s South Sudan program, we recommend that each position description be reviewed to ensure the
current individual is capable of performing the required functions of the position.

Management Response: NPA have an almost new financial management in place with new task and
new organization to ensure a better functioning accounting department. With the move to Sudan, i.e. the
closure of Nairobi as a main accounting office, we will be closing to the activities which will help to ensure
better accounting practices. In addition, there will be training sessions with both program and accounting
staff to raise competence in the accounting area.

                                  Organization of Financial Documents

December 31, 2006 and 2007 Comment: Our audit revealed that the field office financial records
pertaining to fiscal years 2006 and 2007 were not filed in a consistent manner and at times were difficult
to locate. We strongly recommend that the members of the finance and accounting department be more
diligent in the filing of the documents which support the accounting transactions for the South Sudan
programs.

Management Response: This we hope is a passing problem which has come about with change in staff
and the distance from Nairobi to the program. NPA have excellent filing procedures which will in future be
adopted by the program under the guidance of the new administration manager and financial manager.

                                                                                                         IV-8
                                       Internal Payment Vouchers

December 31, 2006 and 2007 Comment: During the course of our 2006 and 2007 audit, we noted
numerous instances in which Norwegian People’s Aid ’s internal payment vouchers were not signed and
dated indicating approval. We strongly suggest that all payment vouchers be signed and dated by the
appropriate individuals indicating approval for payment. In addition, we recommend that members of the
accounting department be notified that payments are not to be processed until a signed and dated
payment voucher is received by the accounting department.

Management Response: Management agrees and will comply.

                               Compliance with Anti-Terrorism Provision

December 31, 2005 Comment: During the course of our audit, it came to our attention that Norwegian
People’s Aid did not have a formal policy documenting compliance with the United States Agency for
International Development’s special grant provision on “anti-terrorism”. Accordingly, we recommend that
Norwegian People’s Aid purchase web based software that is linked to the U.S. Government’s list of
terrorists and terrorists’ organizations. Additionally, management of Norwegian People’s Aid should
document that all contractors and employees paid by funds provided by USAID have been properly
screened through the web based software to ensure that Norwegian People’s Aid is not funding any
terrorist or terrorists’ organization.

December 31, 2006 and 2007 Comment: Our audit testwork over Norwegian People’s Aid’s U.S.
Agency for International Development grants revealed that Norwegian People’s Aid did not comply with
the special grant provision on “anti-terrorism”. We continue to recommend that all contractors and
employees paid by funds provided by USAID be properly screened to ensure that Norwegian People’s
Aid is not funding terrorists or terrorist organizations as defined by the U.S. Government.

Management Response: We recognized a WEB package for complying with the anti-terrorism
requirements was necessary and such a package was purchased in the beginning of 2008 and during
2008 all our suppliers, employees and partners went through the screening and there were no ‘hits’. We
will do the screening now on a regular basis and have designated the responsibility to an HO controller.

                                                (ANGOLA)
                                              Salary Sheets

December 31, 2005 Comment: Our review of the local staff salary sheets revealed several instances
where monthly salary sheets were missing (reported as questioned costs) and numerous instances where
other employees signed the salary sheets indicating they picked up the monthly salary for the intended
employee (however, no further documentation was on file indicating that the actual employee received
their monthly salary). Accordingly, we recommend that the payroll accountant be more diligent in
reviewing the submission of the monthly salary sheets to ensure that signed salary sheets are submitted
for all employees who were paid. In addition, we recommend that only a few individuals be permitted to
pick-up the monthly salary for other employees, and upon distribution of the payroll, the individuals obtain
signed receipts from each employee indicating that they received their monthly salary.

December 31, 2006 Comment: We continued to note instances where monthly salary sheets were
missing. We continue to recommend that the payroll accountant be more diligent in reviewing the
submission of the monthly salary sheets.

December 31, 2007 Status: We noted no instances where the salary sheets were missing. We noted two
instances where the salary sheet was not signed. We noted no exceptions of employees signing the
salary sheets for other employees.




                                                                                                       IV-9
                                           Personnel Contracts

December 31, 2005 Comment: Our review of certain personnel contracts (14) revealed that one contract
did not contain the appropriate documentation (an amendment to the original contract) to support the
current annual salary. Accordingly, we suggest that all personnel contracts be reviewed to ensure that all
contracts are current, up to date and correspond to the amount of salary that each employee is currently
being paid.

December 31, 2006 Comment: Our review of certain personnel contracts (17) indicated that none of the
contracts tested supported the payment of the employees’ current annual salary. We strongly
recommend that all personnel contracts be reviewed to ensure that salary information is current and up to
date.

December 31, 2007 Status: We noted missing contracts and were unable to verify amounts paid.

Management Response: NPA regrets the fact that the abovementioned documentation was not
available in the personnel files during the time of the audit. The differences found during the audit, was
due to the last general salary adjustment. Each file should have a copy of the individual letter going out to
the employees. These copies are all available in the administration department, but unfortunately, they
had not been distributed to their respective folders at the time of the audit.

                                  Allocation of Costs Between Donors

December 31, 2005 Comment: Our examination revealed instances where costs were
incurred/purchased from one vendor and were charged to several donors without documentation as to
how or why the costs were allocated. We suggest that when costs are incurred/purchased from one
vendor and are attributable to several donors, the accounting staff note on the voucher or the invoice the
reason for the allocation of the costs. In addition, we recommend the Chief Accountant review the
allocations to ensure accuracy and consistency.

December 31, 2006 Comment: NPA-Angola established a percentage methodology in order to allocate
costs between different donors. The current methodology is based upon a head count of staff working on
projects funded by different donors. However, the allocation percentage was based on information
effective through 2005 and was not adjusted to reflect changes during the current year. We recommend
NPA-Angola establish procedures to review and revise, if necessary, their cost allocations during the
year.

We continue to recommend the Chief Accountant review the allocations to ensure accuracy and
consistency.

December 31, 2007 Status: NPA Angola has established a cost allocation methodology based on staff
counts. These costs are allocated on a regular basis. Equipment costs are allocated based on the
location and funder.

                                       Allocation of Shared Costs

December 31, 2005 Comment: During the course of our examination we noted that costs incurred by the
Luanda office’s Mine Action Department, Development Program Department, Logistics Department and
the Administration Department were not allocated in a consistent manner between donors. In addition, we
noted that shared costs for the aforementioned departments were not allocated during the period
January 1, 2005 through April 30, 2006. While the methodology for allocating the shared costs may have
been appropriate, we suggest that Norwegian People’s Aid consider allocating the shared costs based
upon actual time expended under each program as reported on the monthly timesheets. We also
recommend that the allocation of shared costs be completed by the 15th day of the following month for the
previous month.




                                                                                                       IV-10
December 31, 2006 Comment: Our audit revealed that shared costs continued to be based upon an
estimated percentage. With the implementation of timesheets in February, 2006, we strongly recommend
that the shared costs be allocated based upon actual percentages calculated from actual time reported on
the timesheets.

December 31, 2007 Status: NPA-Angola has created a pool of shared costs to allocate among its
donors. This allocation is done on a monthly basis and is based on actual costs.

               Compliance with Anti-Terrorism Provision, Suspension and Debarment

December 31, 2007 Comment: Our audit testwork over NPA’s U.S. Department of State grants revealed
that NPA-Angola did not comply with Executive Order 13224, Blocking Property and Prohibiting
Transactions Who Commit, Threaten to Commit, or Support Terrorism. We recommend that all
contractors and employees paid by funds provided by USDOS be properly screened to ensure that NPA
is not funding terrorists or terrorist organizations as defined by the U.S. Government.

Subsequent to the period under our audit, NPA’s home office has implemented software to document
compliance with these provisions. We recommend this software be accessible to the NPA-Angola field
office in order to comply with these provisions.

Management Response: The management agrees, and will follow the recommendation.

                                              (CAMBODIA)
                                              Procurement

December 31, 2006 Comment: Our audit testwork revealed that Norwegian People’s Aid - Cambodia
purchased computer equipment and de-mining equipment in Laos for which sole source justification was
not documented, however, it should be noted that such purchases were made prior to the issuance of our
prior year audit report which recommended the documentation of the sole source procurement process.
Accordingly, we continue to recommend that a memorandum be drafted and kept on file, which specifies
the justification for the sole source procurement of all equipment purchased.

December 31, 2007 Status: Our audit testwork revealed that the procurement process was properly
documented and supported.

                                         Travel Documentation

December 31, 2006 Comment: Our audit testwork revealed improvements in the documentation of travel
expenses, however, we noted several instances where documentation to support the airline travel was
missing. We continue to recommend that all employees submit either the used ticket stub or the boarding
passes as evidence that the airline ticket was used.

December 31, 2007 Status: Our audit revealed one instance in which documentation to support the
travel expenses was missing. We recommend that all employees of NPA-Cambodia be reminded of the
importance of providing documentation to support the actual travel costs at the conclusion of travel.

Management Response: Improvement took place in the travel documentation following the initial audit.
Please note that the used ticket and boarding passes are not with the invoice for the purchase of the plant
ticket, but more often with the statement of travel expenses prepared after the trip.

                                             Salary Sheets

December 31, 2006 Comment: Our audit testwork disclosed instances where salary sheets were not
signed by either the employee or the supervisor. While we understand that certain employees are
working in Laos and paid out of the Cambodia office, we recommend, if possible, all salary sheets be
signed and dated by both the employee and the supervisor based upon the fact that the salary sheets
indicate receipt of payment by the employee.

                                                                                                     IV-11
December 31, 2007 Status: As a result of our audit work, we once again noted several instances where
the monthly salary sheets were not signed by the employee or their supervisor. We suggest that all
employees be reminded of the importance of signing and dating salary sheets indicating that monthly
salary payments have been received.

Management Response: All salary payments made in Lao are properly documented and signed. It is not
possible for Employee to sign when the payment is directly made to a bank account abroad but the
transferred documents and bank statements confirm the payment made by NPA Cambodia.



                                    OTHER AREAS OF CONCERN

                                               (SUDAN)
                                     Classification of Expenses

December 31, 2005 Comment: Our audit testwork revealed numerous instances where similar
transactions were not classified under the same accounts. We strongly recommend that the accounting
staff be more diligent in their classification and posting of expenses within the general ledger.

December 31, 2006 and 2007 Comment: Our audit testwork for 2006 and 2007 again revealed
instances where similar transactions were posted to different accounts within the general ledger. We
continue to recommend the accounting staff be more diligent in their classification and posting of
expenses within the general ledger.

Management Response: We agree and will ensure training of staff and have also employed new
controller staff and senior accounting staff who will be responsible for monitoring and not at least the
quality of the work.

                             Submission of Quarterly Financial Reports

December 31, 2006 and 2007 Comment: Our audit testwork disclosed instances in which Norwegian
People’s Aid did not submit quarterly financial reports by the deadlines stipulated in the grant
agreements. We recommend Norwegian People’s Aid submit all financial reports by the required due
dates in accordance with U.S. Government regulations.

Management Response: Management agrees and will ensure compliance with guidelines with regard to
reporting.

                                              (ANGOLA)
                                             Cash Counts

December 31, 2005 Comment: At the present time, cash counts are not conducted at the end of the
month at each of NPA-Angola’s bases. To improve the internal control over cash, we strongly recommend
that the Base Manager or the Administrator at each base conduct end of month cash counts and send the
documented cash count with the monthly daily cash log to Luanda. Such procedures will ensure that cash
is properly reconciled and accounted for at the end of each month. In addition, we suggest that a member
of the Luanda finance department conduct “surprise” cash counts on occasion.

December 31, 2006 Comment: Our audit revealed that the monthly cash counts performed at the bases
were poorly documented. In addition, no “surprise” counts were performed during the period of our audit.
Accordingly, we continue to recommend that monthly cash counts be properly documented and that
“surprise” cash counts be done on occasion.



                                                                                                  IV-12
December 31, 2007 Status: We noted monthly cash counts are being performed and documented at the
bases.

                                         Bank Reconciliations

December 31, 2005 Comment: Our audit revealed that the bank account in Luanda was not properly
reconciled in a timely manner. To ensure that cash is properly stated and that all financial transactions
have been properly recorded in the general ledger we strongly recommend that the bank account be
properly reconciled to the general ledger in a timely manner. We suggest that the reconciliations be
completed within seven days upon receipt of the bank statement. Additionally, we recommend that all
reconciliations be reviewed and approved by the Finance Director. The reconciliations should be signed
by the individual who prepares the reconciliation as well as the Finance Director (indicates approval).

December 31, 2006 Comment: NPA-Angola has improved their bank reconciliation procedures.
However, we continue to recommend that bank reconciliations be prepared in a timely manner.

December 31, 2007 Status: Our testwork noted the bank reconciliations are being prepared in a timely
manner. In general the reconciliations are signed by the person who prepared them and the reviewer;
however, we noted instances where the reconciliation was not signed by the reviewer. We continue to
recommend all reconciliations be signed by the reviewer as part of proper internal controls.

Management Response: The management agrees with the comments, and will seek to further improve
the bank reconciliation procedures.

                                          Fixed Asset Ledger

December 31, 2005 Comment: Our audit disclosed that the Logistics office of NPA-Angola maintains a
ledger of all assets purchased with donor funds; however, the ledger does not indicate the donor funds
used to purchase specific assets. To comply with U.S. Government regulations, we recommend that the
current fixed asset ledger be updated to indicate which donor funds were used to purchase which fixed
assets. In addition, we suggest that the ledger be updated on a monthly basis (for all purchases in excess
of $5,000) and reconciled with the accounting records.

December 31, 2006 Comment: We reviewed the updated assets ledger and noted that the ledger still
does not indicate the source of funds (donor) which was used to purchase the assets. We continue to
recommend that the Logistics office update the assets ledger to indicate the sources of funds used when
purchasing the assets.

December 31, 2007 Status: NPA-Angola has revised its fixed asset register to indicate which donor
funds were used to purchase the fixed assets. We noted the register continues to include items for which
the donor is unknown; however, all additions to the list include donor identification.

                                          Severance Liability

December 31, 2005 Comment: During the course of our audit we analytically reviewed the calculation of
the severance liability for all local staff employees working in the Cuanza Sul province. Based upon
discussions with the HR Director in Angola, we believe the liability for local staff severance as mandated
by current Angolan law is materially understated. Accordingly, we recommend that the payroll accountant
maintain a worksheet that identifies the accumulated liability by individual employee. The worksheet
should be updated on a monthly basis (quarterly at a minimum) and the increase or decrease in the
liability should be charged/allocated to the appropriate donors based upon the programs/projects that the
employees are currently working on as identified on their daily time records.

December 31, 2006 Comment: During the course of our audit testwork, we were informed that the
severance liability was reviewed and adjusted as necessary during the 2005 and 2006 fiscal years.
However, we were unable to verify the liability during our audit. We strongly recommend that a detailed
schedule of the potential liability by employee be maintained by employees and updated on a quarterly or
semi-annually basis.

                                                                                                    IV-13
December 31, 2007 Status: We noted NPA-Angola accrues for severance on a monthly basis as part of
its payroll process. This is calculated by employees on a monthly basis.

                             Submission of Required Financial Reports

December 31, 2005 Comment: Our audit testwork disclosed that the required U.S. Government financial
forms were not submitted with quarterly financial information (one report covered five months and one
report covered two months). In addition, we noted that NPA-Angola did not have documented the dates
on which the reports were submitted. Accordingly, we recommend that all required financial reports be
submitted for only quarterly periods (those ending on the last day of the month of March, June,
September and December) and that NPA-Angola maintain documentation which supports the date the
reports were submitted.

Our audit also revealed that a final inventory of equipment list was not submitted to the U.S. Government
within 30 days after the completion of the audit as stipulated in the grant agreement. We recommend that
NPA-Angola compile a list of equipment purchased with U.S. Government funds and submit the list as
soon as possible.

In addition, for all future U.S. Government grants, we recommend that Norwegian People’s Aid identify all
required financial and programmatic filings as detailed in the grant agreements and maintain a calendar
which will ensure that the filings are completed in a timely manner.

December 31, 2006 Comment: Our audit testwork disclosed two required financial reports that were not
submitted in a timely manner. We continue to recommend that all required financial reports be submitted
within the required time of 30 days after the quarter end.

In addition, we continue to recommend that a final inventory of equipment list be submitted to the U.S.
Government within 30 days after the completion of the grant.

December 31, 2007 Status: We noted financial reports continue to be submitted late for 2007.

Management Response: Management agrees and will ensure compliance with guidelines with regard to
reporting.

                                          Signature Authority

December 31, 2006 Comment: Our audit disclosed that no individuals from the office in Oslo have
signature authority over the bank accounts in Angola. To improve that existing controls over the bank
accounts in Angola, we recommend that the CFO, or her designee, of NPA have signature authority on all
bank accounts.

December 31, 2007 Status: We noted that NPA-Angola bank accounts include home office signature
authority.

                                     Formal Bank Reconciliations

December 31, 2006 Comment: During the course of our audit, it came to our attention that one bank
account was not properly reconciled during the year (certain transactions were not recorded in the
ledger). Because the account has not had any activity since April, 2006, we recommend closing the
account. Should the account remain open, we recommend formal reconciliations be performed to ensure
all activity is recorded in the general ledger.

December 31, 2007 Status: Formal bank reconciliations are being prepared for all accounts.




                                                                                                   IV-14
                                Drug-Free Workplace Documentation

December 31, 2006 Comment: The current United States Department of State (USDOS) awards require
that NPA-Angola maintain a drug-free workplace. Our audit revealed that NPA-Angola does not have a
documented drug-free workplace policy. Accordingly, we recommend that NPA-Angola adopt, implement
and document a drug-free workplace policy. The policy should be incorporated into the current employee
manual. In addition, we recommend that all employees document receipt of and acknowledge the
contents of the manual. Such documentation should be maintained in each employee’s personnel file.

December 31, 2007 Status: NPA-Angola has a drug-free workplace policy included in the code of
conduct, which is signed whenever a new contract is signed, including the conflict of interest policy.

                                    Conflict of Interest Statements

December 31, 2007 Comment: NPA-Angola staff do not sign annual conflict of interest statements. In
order to maintain best practices, we recommend annual conflict of interest statements be signed annually
and maintained in the employee personnel files.

Management Response: The management agrees, and will follow the recommendation.

                                          Request of Funds

December 31, 2007 Comment: NPA-Angola does not prepare a formal request for funds to be
transferred from the home office to Angola. We recommend considering the preparation of a formal
request and documentation to support this request.

Management Response: The management agrees, and will follow the recommendation.

                  Documentation of Clearing and Handling Costs at Port in Luanda

December 31, 2007 Comment: NPA-Angola paid clearing and handling costs (aggregate amount of
$17,229) to certain vendors for equipment, supplies and replacement parts for vehicles. Such costs were
necessary in order to release the equipment, supplies and replacement parts from the secured port. Our
audit work revealed that the supporting documentation for these payments was not consistently linked to
specific purchases. We recommend that the payment of such clearing and handling costs clearly specify
the equipment, supplies or replacement parts for which the payments are intended.

Management Response: The management agrees, and will follow the recommendation.

                                         Whistleblower Policy

December 31, 2007 Comment: NPA-Angola does not have a clearly documented whistleblower policy
that is disseminated to staff. We recommend NPA-Angola develop and train staff on this policy.

Management Response: The management agrees, and will follow the recommendation.

                                             (CAMBODIA)

                                    Employee Attendance Sheets

December 31, 2005 Comment: During the course of our audit testwork, it came to our attention that
employee attendance sheets were not signed by the employees on the days in which they did not work.
In addition, the employee attendance sheets were not signed by a supervisor, indicating review and
approval. Accordingly, we recommend that the employees sign the attendance sheet for each work day of
the month, whether they worked the day or not. We also recommend that all attendance sheets be
reviewed, approved, signed and dated by a supervisor.




                                                                                                  IV-15
December 31, 2006 Status: We continue to note that attendance sheets are not signed by employees
on the days in which they did not work. We continue to recommend that the employees sign the
attendance sheet for each day of the month, whether they worked or not.

In addition, we found several instances where attendance sheets were not signed by employees or
approved by supervisors. We also noted two instances where monthly attendance sheets were not
completed. To be in accordance with U.S. Government regulations, we recommend NPA ensure that all
attendance sheets be completed, signed by the employee and signed and dated by a supervisor. As a
further control we suggest that the monthly attendance sheets be amended so that the employees note
which project number they are working on each day.

Management Response: Note and Accepted: All staff paid by this US Funding are working for only one
project (100% of their time), the project of "Capacity Building support to UXO Lao"

                                         Drug-Free Workplace

December 31, 2006 Comment: The current United States Department of State (USDOS) awards require
that NPA-Cambodia maintain a drug-free workplace. Our audit revealed that NPA-Cambodia does not
have a documented drug-free workplace policy. Accordingly, we recommend that NPA-Cambodia adopt,
implement and document a drug-free workplace policy. The policy should be incorporated into the current
employee manual. In addition, we recommend that all employees document receipt of and acknowledge
the contents of the manual. Such documentation should be maintained in each personnel file.

December 31, 2007 Status: Based upon discussions with the Finance Manager as well as our audit
work, we noted that a Code of Conduct, which addresses workplace behavior, was adopted by NPA-
Cambodia. A copy of the Code of Conduct was distributed to all employees.



         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 9, 2009




                                                                                                   IV-16
             COST-SHARING SCHEDULE

    NORWEGIAN PEOPLE’S AID
 UNITED STATES GOVERNMENT PROGRAMS

FOR THE YEAR ENDED DECEMBER 31, 2007




                                  V-1
                                   NORWEGIAN PEOPLE’S AID



                                            CONTENTS



                                                                          PAGE NO.


INDEPENDENT AUDITORS’ REVIEW REPORT ON THE COST-SHARING SCHEDULE             V-3


EXHIBIT A - Cost-Sharing Schedule, for the Year Ended December 31, 2007      V-4




                                                                               V-2
                            GELMAN, ROSENBERG & FREEDMAN
                                CERTIFIED PUBLIC ACCOUNTANTS

                              INDEPENDENT AUDITORS' REVIEW REPORT
                                 ON THE COST-SHARING SCHEDULE



To the Board of Directors
Norwegian People’s Aid
Oslo, Norway



         We have reviewed the accompanying cost-sharing schedule of Norwegian People’s Aid (NPA) for
the year ended December 31, 2007. Our review was conducted in accordance with standards established
by the American Institute of Certified Public Accountants (AICPA). The purpose of our review was to
determine if the cost-sharing schedule is fairly presented in accordance with the basis of accounting
described in the accompanying Note to Cost-Sharing Schedule and to determine if the cost-sharing
contributions were provided in accordance with the terms of the agreement. We also considered NPA’s
internal control related to the provision of and accounting for cost-sharing contributions.

         A review consists principally of inquiries of recipient personnel and analytical procedures applied to
financial data. It is substantially more limited in scope than an examination, the objective of which is to
express an opinion on the cost-sharing schedule. Accordingly, we do not express such an opinion.

        Based on our review, nothing came to our attention that caused us to believe that NPA did not fairly
present the cost-sharing schedule, in all material respects, in accordance with the basis of accounting used
to prepare the cost-sharing schedule. Furthermore, nothing came to our attention that causes us to believe
that NPA has not provided and accounted for cost-sharing contributions, in all material respects, in
accordance with the terms of agreement.

                                  _________________________________

         This report is intended for the information of Norwegian People’s Aid and the U.S. Government
funding agencies. However, upon release by the funding agencies, this report is a matter of public record
and its distribution is not limited.




November 9, 2009




                    4550 MONTGOMERY AVENUE, SUITE 650 NORTH, BETHESDA, MARYLAND 20814
                           (301) 951-9090 • FAX (301) 951-3570 • WWW.GRFCPA.COM



                 MEMBER OF CPAMERICA INTERNATIONAL, AN AFFILIATE OF HORWATH INTERNATIONAL
    MEMBER OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS’ PRIVATE COMPANIES PRACTICE SECTION

                                                                                                           V-3
                                                                                        EXHIBIT A

                                 NORWEGIAN PEOPLE’S AID

                               COST-SHARING SCHEDULE
                         FOR THE YEAR ENDED DECEMBER 31, 2007



                                                   2007                         Cumulative
                                     Actual   Ineligible Unsupported   Actual    Budget Variance

CASH: U.S. DOS # S-PMWRA-07-GR-077    $   -     $   -      $   -        $   -   $132,135 $(132,135)




                                                                                                V-4
                                    NORWEGIAN PEOPLE’S AID

                               NOTE TO COST-SHARING SCHEDULE
                                      DECEMBER 31, 2007



1.   BASIS OF PRESENTATION

     The accompanying cost-sharing schedule has been prepared on the accrual basis of accounting,
     and presents only the transactions of Norwegian People’s Aid’s cost-sharing grants applicable to the
     requirements of certain United States Agency for International Development awards. Accordingly,
     the cost-sharing schedule is not intended to present fairly all transactions of Norwegian People’s Aid
     as a whole.




                                                                                                       V-5
    NORWEGIAN PEOPLE’S AID
 UNITED STATES GOVERNMENT PROGRAMS

                          REPORT ON
           INDIRECT RATE CALCULATION

FOR THE YEAR ENDED DECEMBER 31, 2007




                                  VI-1
                                     NORWEGIAN PEOPLE’S AID



                                              CONTENTS



                                                                         PAGE NO.


INDEPENDENT AUDITORS' REPORT                                               VI-3


EXHIBIT A - Statement of Indirect Rate Calculation, for the Year Ended
            December 31, 2007                                              VI-4




                                                 -1-                          VI-2
                               KPMGAS                                                                     Telephone     +4704063
                               P.O. Box 7000 Majorstuen                                                   Fax           +4722609601
                               S0rkedalsveien 6                                                           Internet      WoNW,kpmg.no
                               N-0306 Oslo                                                                Enterprise    935 174 627MVA




Report on Schedule of Computation of Indirect Cost Rate



The Board of Directors
Norwegian People' s Aid
P.O.Box 8844 Youngstorget
N-0028 Oslo
Norway




Our audit of the financial statements of Norwegian People's Aid for the year ended 31 December
2007 was performed for the purpose of forming an opinion on the basic financial statements
taken as a whole. The attached schedule of computation of indirect cost rate for 2007 is presented
for the purpose of additional analysis and is not a required part of the basic financial statements.
Such information has been subjected to the auditing procedures applied in the audit of the basic
financial statements and, in our opinion, is fairly stated in all material respects in relation to the
basic financial statements taken as whole.



Oslo, 5 December 2008
KP GAS




                                                                                                          OfliceSlfl:

                                                                                                          0"            Haugesund      Sandeljord
                                                                                                          Bodo
                                                                                                          Alia
                                                                                                                        Kristiansand
                                                                                                                        larvik
                                                                                                                                       SandnesSjOOn
                                                                                                                                       $Iavanger
                                                                                                                                                   VI-3
                               KPMG AS'5 a member /"m 01 Ihe KPMG networ k 01 lnoepenOOllt member
                               firms af1iliated wilh KPMG Intemational. a SWISS cooperative.
                                                                                                          Arcndal
                                                                                                          Be<(len
                                                                                                          Elverum
                                                                                                                        M_
                                                                                                                        lillcharnmer
                                                                                                                        MOl Raoa
                                                                                                                                       $I01d
                                                                                                                                       Tromsc
                                                                                                                                       Trondhe,m
                                                                                                          F,nnsnes      Narvik         T0Ilsberg
                               Stalsautonserte IIMSOfer· medlemmer    BV   Den IlOfske ReVisorlorClllng   Hamar         R.oo           Alesund
--~~-------"-----,~~-,,"----                                  -------,--~-                                                                                                    ...   _..,,:._-'-',,---,",-,",-.~ .-'.
       NiCRA model2C07.xls




                                                                                Norsk Folkehjelp

                     All numbers ar{! in NOK                                                                          Schedule of computation of indirect cost rate

                                                                                                                           For the year ended december 2007


            Note     Description                                                             Expenses      Exclusions! Unallowable Expences                     Direct Cost Base                                       Indirect Cost Pool
                     Bad debt expence                                  -<),02                  -115699                             -115699                               -115699
                     Depreciation                                      0.40                  2710199                                                                       28351                                               2681848
           Note 1    Employee moral, hez.lth and welfare               1,94                 12983745                                                                   11176889                                                1 806 755
           Note 2    Entertainment                                     0,13                    846857                               846857                                81.6857
                     Equipment rental                                  0.49                  3268291                                                                    2618366                                                  649925
                     Equipment! capex - non depreCiation               7,94                 53199795                                                                   51 008597                                               2191198
                     Fringe benefits (Employee benefits)               3,74                 25097382                              1 179591                             200730e?                                                5024315
                     Fund raising                                      8,23                 55137912                             55137912                              55137912
                     !nsurance                                         0,17                  1 160957                                                                     644 569                                               516388
           Note 3    Materia!s & supp!ies                              3,88                 25859648                                                                   25187097                                                 672551
                     Occupancy & cleaning                              3,12                 20883426                                                                   18715706                                                2167721
                     Office supplies                                   0,53                  3579234                                                                    2246165                                                1333070
                     Postage, shipping & transport                     4,25                 28514968                                                                   25887930                                                2627038
                     Printing & duplicating                            0,51                  3408524                                                                    3066067                                                 342456
           Note 4    Professional expef'lces                           3,19                 21362138                                                                   14268357                                                7093781
           NoteS     Recruitment                                       0,08                    535 690                                                                   197446                                                 338 244
           Note 6    Repairs & maintenance                             1,£0                 10732063                                                                    7854394                                                2877 669
                     Salaries & wages                                  31,30               209826437                                                                  163699130                                               46127307
           Note 7    Sub contractors                                   21.18               141 959659                                                                 141959659
                     Telephone                                         1,19                  7947324                                                                    4533910                                                3413414
                     Training & education                              1,94                 13005695                               200000                              12961 124                                                 44571
                     Travel                                            4,{lS                27 126942                                                                  21149 657                                               5977 285
                     Miscellaneous                                     0,20                  1323815                                                                     457718                                                 886097


                                         Total applicable Nicra cost                       67{) 355 {)O1                        57248 562                             583603369                                              86751632




           NoteS     Redundant costs not applicable to Nicra                                   274264
           Note 9    Exclution of USAID Grants with no NICRA allocation                     64 685384
                     Total cost transparant to the Year End
                     Statement                                                             735314650




      Nicra NOK
